<html>
<title> - EVALUATING THE THREAT OF AGRO-TERRORISM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                EVALUATING THE THREAT OF AGRO-TERRORISM

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 2005

                               __________

                           Serial No. 109-16

                               __________

       Printed for the use of the Committee on Homeland Security







  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                 U.S. GOVERNMENT PRINTING OFFICE

23-605                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001










                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                   Rob Simmons, Connecticut, Chairman

Curt Weldon, Pennsylvania            Zoe Lofgren, California
Peter T. King, New York              Loretta Sanchez, California
Mark E. Souder, Indiana              Jane Harman, California
Daniel E. Lungren, California        Nita M. Lowey, New York
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania           Bennie G. Thompson, Mississippi 
Christopher Cox, California (Ex      (Ex Officio)
Officio)

                                  (II)



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut, and Chairman, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment
  Oral Statement.................................................     1
  Prepared Statement.............................................     1
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................
  Oral Statement.................................................     5
  Prepared Statement.............................................     5
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    33
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................     6
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    30
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    34

                               WITNESSES

Dr. Rocco Casagrande, Managing Director, Gryphon Scientific
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Joseph W. Reardon, Food Administrator, Food and Drug 
  Protection Division, North Carolina Department of Agriculture 
  and Consumer Services
  Oral Statement.................................................     7
  Prepared Statement.............................................     9















                         EVALUATING THE THREAT

                           OF AGRO-TERRORISM

                              ----------                              


                        Wednesday, May 25, 2005

                          House of Representatives,
          Subcommittee on Intelligence, Information
            Sharing, and Terrorism Risk Assessment,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:15 p.m., in 
Room 210, Cannon House Office Building, Hon. Rob Simmons 
[chairman of the subcommittee] presiding.
    Present: Representatives Simmons, Gibbons, Dent, Cox (Ex 
Officio), Lofgren, Etheridge, Langevin, and Thompson [Ex 
Officio].
    Mr. Simmons. The subcommittee will come to order. Instead 
of reading my opening statement because of the hour, I would 
like to insert it into the record as if read.
    [The information follows:]

           Prepared Statement from the Honorable Rob Simmons

    I'd like to make one quick administrative note for Members before 
recognizing our witnesses. Today's hearing will be followed immediately 
by a classified threat briefing from experts from the DHS Office of 
Information Analysis, the National Counterterrorist Center, and the 
Federal Bureau of Investigation in the area of agricultural terrorism. 
This will be meeting for Members and limited committee staff only and 
will take place in the secure Committee spaces of room 202A of the 
Adams Building.
    Our witnesses here today include Dr. Rocco Casagrande, Managing 
Director of Gryphon Scientific and former UN weapons inspector and Mr. 
Joseph Reardon, Food Administrator for the North Carolina Department of 
Agriculture & Consumer Services, Food and Drug Division.
    Thank you both for being here today. It is very important that the 
threat of agro-terrorism be understood in the post 9/11 context. As the 
9/11 Commission reminded us, our intelligence community suffered from a 
``failure of imagination.'' We in Congress must not make the same 
mistake. This hearing, along with the classified briefing we intend to 
have later today, will serve to focus on a threat that some in our 
country believe has been underestimated.
    For instance, in December of 2004, former Secretary of Health and 
Human Services, Tommy Thompson summed up his view on the potential of 
terrorist attacks on U.S. agriculture when he remarked:
    ``For the life of me, I cannot understand why the terrorists have 
not attacked our food supply because it is so easy to do.''
    The focus of to day's hearing is understanding that potential 
threat: What are the terrorist intentions and capabilities, what 
materials, both natural and engineered are available and have terrorist 
groups shown interest in an agricultural attack?
    While attacks against agriculture are as old as war itself, the use 
of biological weapons against agricultural targets has remained 
primarily a theoretical consideration. The General Accounting Office 
considers bioterrorism to be an emerging threat but has concluded that 
terrorists are less likely to use biological weapons than conventional 
explosives. Additionally, Dr. Peter Chalk of the RAND Corporation has 
pointed out that ``Despite the ease by which an act of agro-terrorism 
could be carried out . . . it is unlikely to constitute a primary form 
of terrorist aggression. This is probably because such acts would 
probably be viewed as ``too dry'' in comparison with traditional 
tactics in the sense that they do not produce immediate, visible 
effects.''
    The historical record indicates that biological weapons have rarely 
been used against crops or livestock despite extensive research devoted 
to this possibility in the past--particularly during World War II and 
the immediate aftermath, when several countries, including the United 
States, developed crop and livestock diseases as weapons of mass 
destruction.
    Similarly, since 1912 there have been 12 documented cases of non-
state uses of biological agents to deliberately infect livestock or 
contaminate produce. Of those, only two could be seen as terrorist in 
nature: The first example is widespread food poisoning carried out by a 
cult in Oregon in 1984. The other example is an attempt by the 
Japanese-based Aum Shinrikyo organization, in the early 1990s, to 
spread anthrax and botulinum toxin.
    While history gives us an indication of what may be on the horizon, 
that does not mean we should look solely to the past. As 9/11 reminded 
us, we must think ``outside of the box'' in order to anticipate the 
next attack. But in doing so, we must also assess the risk of agro-
terrorism in context with other threats to our homeland security, such 
as a potential radiological, nuclear or conventional bomb attack.
    I'd again like to thank our witnesses today for helping us put the 
threat in context and offering their perspectives on the threat to 
agriculture.

    Mr. Simmons. The topic this afternoon is evaluating the 
threat of agro-terrorism, an issue that is of great interest to 
us on this subcommittee and of great interest to many Americans 
around the country. We are all familiar with the attack on our 
country that took place on 9/11, an attack that involved the 
aviation industry and involved those of our citizens living and 
working in the World Trade Center and the Pentagon and 
elsewhere.
    But there are other threats that we have to address when we 
look at the risks and the vulnerabilities of this country. One 
of those goes to the issue of our food supply and the 
possibilities of agro-terrorism, and that is the subject of 
this afternoon's hearing.
    I note that Mr. Etheridge would like to introduce our 
witness. I will extend to him that privilege.
    But first I would like to yield to our ranking member to 
see if she has comments that she would like to make.
    Ms. Lofgren. Thank you, Mr. Chairman. As with your comment, 
I will submit my full statement for the record to save time.
    But I would note that I am glad that our subcommittee is 
the first, to my knowledge, to address this potential threat to 
our Nation. As you have pointed out, an attack on agriculture 
would not necessarily kill a large number of people, at least 
not immediately, but it is something we ought to be concerned 
about. I think the hook for our subcommittee really is the role 
of intelligence in understanding the nature of the threat and 
certainly communicating with the appropriate authorities about 
what is known and what steps to take.
    At the conclusion of this public hearing, we will have a 
classified briefing that will go into things that are more 
appropriately dealt with in that setting. I would note that 
some of the questions I have will be reserved for that session, 
because the last thing we want to do is provide a roadmap to 
potential terrorists through our questions and answers here in 
this public session.
    So with that, I would submit my statement for the record in 
noting that Mr. Etheridge is going to introduce the witness and 
also noting that Mr. Thompson, our ranking member for the full 
committee, is also present. Both of them have rural districts 
and know more about agriculture than I do.
    So I yield back.
    [The information follows:]

             Talking Points from the Honorable Zoe Lofgren

    I am glad that our Subcommittee is the first to address this 
serious threat to our nation. Agro-terrorism is an important issue that 
has not received the full attention of the Homeland Security Committee 
until now.
    When most people think of terrorism, they think of bombed out 
bridges, buildings, and hijacked airplanes being used as weapons - 
farms and ranches do not immediately come to mind.
    However, ranches and farms remain valuable targets for terrorists. 
This is because of the many points of access to agriculture or food 
supply systems. It is also due to the relative ease of spreading highly 
contagious diseases among livestock, such as foot and mouth disease.
    Unlike a nuclear weapon, an attack on agriculture would not 
necessarily kill a large number of people--at least not immediately. 
The first obvious signs of an agro-terror attack may not be seen for 
days, and may not even appear to be an intentional attack.
    That is why intelligence information is critical to identifying and 
stopping an attack before or immediately after it occurs.

The Role of Intelligence
    The agriculture industry faces the same information sharing 
challenges as other critical infrastructure sectors.
        For example, the agencies responsible for collecting 
        information are not the same ones responsible for sharing it 
        with local and state authorities.
        <bullet> That results in confusion about whether and how to 
        share classified information with parties that need it.
        <bullet> It also ``muddies the water'' about what actions 
        should be taken, by whom, and even where in the food processing 
        system action should be taken.We need better mechanisms for 
        intelligence agencies to share information.
        <bullet> First, we must determine whether the Intelligence 
        Community has the resources and talent it needs to sufficiently 
        assess the agro-terror threat.
        <bullet> Second, the intelligence information provided should 
        be easily accessible at the federal, state, and local levels. 
        The information should be specific and actionable by government 
        officials and those in the private sector.
        <bullet> Third, the information must be conveyed quickly and 
        reliably in a way that targets the specific sector as much as 
        possible.

Conclusion
    In closing, it is past time that our Committee addresses the issue 
of agro-terrorism. I hope today's testimony is a starting point for 
future discussions of this important issue.

    Mr. Simmons. I thank you for those remarks.
    The chairman of the full committee, Mr. Cox, the gentleman 
from California has arrived, and I would yield to him for an 
opening statement.
    Mr. Cox. Thank you, Mr. Chairman. I will be brief. We are a 
Nation that is been nurtured for well over 200 years by our 
farmers, and our farmers produce food for much of the rest of 
the world. We have in them a great national asset of global, 
economic and humanitarian significance, of which we are all 
justifiably proud. They are one of America's greatest success 
stories.
    Terrorists have different values, feeding the hungry isn't 
important to them. On the contrary, there is little doubt that 
they would ruthlessly starve us all if they could.
    But that is not really the point. Noting that terrorists 
are evil and seek to propagate evil is not news, not actionable 
intelligence to any of us. Suffice it to say that we know 
terrorists would be glad to inflict great harm on our civilian 
population and would gladly use biological and chemical weapons 
to do so.
    Our agricultural community is a critically important and 
irreplaceable national asset. Our great assets can, in homeland 
security terms, be viewed as vulnerabilities, potential 
terrorist targets. For precisely that reason, they are 
critically important and irreplaceable. Meanwhile, we know that 
Al-Qa`ida and its ilk continue to seek opportunities to inflict 
massive, irreversible harm on us here at home.
    That brings us to this afternoon's task, evaluating the 
threat of agro-terrorism. In other words, we are asking the 
question whether the vulnerabilities in our agricultural 
community line up with what we know of terrorist capabilities, 
plans and intentions.
    If they do, then we must consider that our agricultural 
sector is at risk and then move on in other settings to 
consider how best to reduce or eliminate that risk.
    First of all, though, we have to know what we are up 
against. Only then can we decide what to do about it.
    Our witnesses will start us down that path. I want to 
welcome you and thank you for being here today. We hope first 
to get from you a historical perspective on agricultural 
attacks. That has to be our baseline.
    Then we want to learn what is known about terrorist 
capabilities and about terrorist plans and intentions to target 
America's agricultural center.
    That will bring us up to date.
    In short, we have to start by disciplining ourselves to 
speak in factual rather than hypothetical terms. This hearing 
is such a step. If we do learn that there is a real risk of 
attack, a known threat aligning with an actual vulnerability in 
our agricultural sector, then we must ask how most effectively 
to prevent the potential attack.
    If the risk is, at present, largely theoretical, we must 
nevertheless take it seriously, but at the same time exercise 
the discipline to prioritize that hypothetical risk against 
known risks to other significant sectors to our economy and to 
our society at large.
    One final comment, Mr. Chairman. Examining the threat 
before settling on the solution before setting our national 
counterterrorism priorities makes eminent good sense. The 
uncomfortable fact is, we must prioritize even when it comes to 
Homeland Security to protecting American lives and our critical 
infrastructure. We have to work smart if we are to prevent the 
next attempted terrorist attack and the next after that.
    We must continue to insist on the discipline of examining 
the universe of potential targets and the cold life of what we 
actually know about terrorist capabilities, plans and 
intentions. That is good common sense, and these are, of 
course, uncommon times. It is as right, though, for California, 
the largest agricultural State, as it is for Mississippi, North 
Carolina or anywhere else.
    So it is the pattern we will follow in examining the 
potential for terrorist attack on other sectors of our society, 
I hope, as other subcommittees and the full committee pursue 
their responsibilities.
    Thank you, Mr. Chairman, I yield back.
    Mr. Simmons. I thank the chairman of the full committee for 
his remarks.
    Now I would like to recognize the ranking member of the 
full committee, Mr. Thompson, for his opening statement.
    Mr. Thompson. Thank you, very much, Mr. Chairman, and 
ranking member Ms. Lofgren, and Mr. Cox, chairman of the full 
committee. I look forward to the testimony today. I am one of 
those members of Congress who lives in a very rural district. 
Agriculture is the second leading source of income for my 
constituents. This issue is very near and dear to me. I have a 
written statement for the record that I will submit.
    I also would like to indicate that about 4 months ago, we 
made the request of the chairman to look at agro-terrorism from 
the committee standpoint. This is the beginning of what will be 
a series of hearings on this critical issue over the next few 
months.
    I will yield the rest of my time, Mr. Chair, and submit the 
written testimony for the record.
    [The information follows:]

  Prepared Statement from the Honorable Bennie Thompson for the Record

    <bullet> I am glad we are finally holding what I expect will be the 
first of several hearings on the critical issue of Agro-Terrorism.
    <bullet> Almost four months ago, I requested that Chairman Cox hold 
a hearing to determine whether the Department of Homeland Security has 
made any progress toward meeting the responsibilities laid out in 
Homeland Security Presidential Directive-9 (HSPD-9).
    <bullet> This directive gave DHS responsibility for ensuring our 
agriculture and food supply security efforts were coordinated and 
implemented - including efforts of the state and local governments and 
private sector.

The Threat is Real
    <bullet> Agro-terrorism--and the threat it poses to our food 
supply--is as great today as it was in January 2004 when HSPD-9 was 
issued.
    <bullet> In fact, this past December, retiring Secretary of Health 
and Human Services Tommy Thompson stated, ``For the life of me, I 
cannot understand why the terrorists have not attacked our food supply 
because it is so easy to do. We are importing a lot of food from the 
Middle East, and it would be easy to tamper with that.''
    <bullet> During the U.S. invasion of Afghanistan, an Al-Qa`ida 
training manual found in a cave reportedly discussed the destruction of 
crops, livestock and food processing operations.
    <bullet> It is imperative that we fully understand the threats 
facing our agriculture and food supply sectors.

Role of the Federal Government
    <bullet> It is also imperative that the Federal government do 
everything possible to support local and state efforts to secure these 
sectors. This can be done in several ways.
    <bullet> First, the Federal government can help by providing timely 
and accurate intelligence information to states through a reliable 
system that can be easily accessed by officials. This information 
should also be sufficiently unclassified so that it can be disseminated 
as quickly as possible to the necessary parties.
    <bullet> Another way the Federal government can assist state and 
local governments is for DHS to provide a detailed implementation 
strategy for HSPD-9. This strategy has yet to be shared with Congress--
even though we requested this information over a year ago.
    <bullet> A strategy would provide much-needed clarity to folks by 
identifying concrete steps that need to be taken or more clearly 
spelling out the roles and responsibilities of the various agencies 
involved in preventing, detecting, and responding to an agro-terror 
attack.
    <bullet> I believe we will hear testimony shortly that speaks 
directly to this point.
    <bullet> Finally, I believe the Federal government can reduce the 
local response time to an incident by providing quick and accurate 
scientific assessments when called upon by state and local agriculture 
departments and the private sector.
    <bullet> I look forward to this hearing as a first-step in 
fulfilling this Committee's constitutional oversight responsibilities 
over the Department of Homeland Security.

    Mr. Simmons. I thank the gentleman for his comments. At 
this point, I would like to recognize Mr. Etheridge for 
purposes of an introduction.
    Then I will introduce Dr. Casagrande.
    Mr. Etheridge.
    Mr. Etheridge. Mr. Chairman, thank you for the opportunity 
and Ms. Lofgren, Chairman Cox and Ranking Member Thompson, for 
having the hearing and secondly, I hope this is just the 
beginning of the hearings we will have and hopefully some field 
hearings because this is, as I think has been said, a very 
important topic.
    I am pleased today that we are going to get to hear from my 
friend Joe Reardon from North Carolina, who really has a story 
to tell. He has been instrumental in developing North 
Carolina's agro-security, preparation and response plans. I 
think we will learn a great deal today from his experience.
    As you well know and has been stated already, agricultural 
is one of our Nation's 17 critical infrastructure sectors and 
contributes about $1.2 trillion to our economy every year and 
it counts for one in six jobs.
    We certainly know that terrorists would like nothing better 
than to interrupt our food supply. I think it is vital that we 
do this, have these hearings. I thank you for doing it. It is 
important that we get Federal agencies working together with 
State agencies and the private sector, because it is 
imperative.
    Joe is currently food administrator for the North Carolina 
Department of Agricultural and Consumer Services Food and Drug 
Division. He has about 25 years of service in food inspection, 
safety and security. He previously served as a Special 
Assistant to the Commission of Agricultural Food and 
Agricultural Commission.
    In this role he had the opportunity to develop a statewide 
mitigation program for Exotic Newcastle Disease and led the 
development of the Nation's first infectious disease hazard to 
be included in a State FEMA plan.
    He holds degrees from North Carolina State University and 
is currently working on his second degree from a university in 
the State. He is currently serving as a board member for the 
Association of Food and Drug Officials of the Southern States 
and is also a member of the Association of Food and Drug 
Officials. He is the author of numerous national articles.
    We are pleased to have him with us today, Mr. Chairman.
    Mr. Simmons. I thank you for that introduction. Yes, 
indeed, Mr. Reardon, we are glad to have you here.
    Dr. Rocco Casagrande is our second witness. He is the 
managing director of Gryphon Scientific. For the past 5 years, 
he has been studying the problems of agricultural bioterrorism. 
For several years, he served as the United Nations Biological 
Weapons Inspector in Iraq, where I understand he was engaged in 
numerous inspections, over 50 inspections in that country. He 
also served as chief of the United Nations Biological Analysis 
Laboratory.
    He comes to us from Cornell University, where he has a BA 
in chemistry and a BA in biology and a Ph.D. in experimental 
biology from MIT. He is the publisher of numerous articles on 
molecular biology, cell biology, genetics and biochemistry.
    Welcome, it is good to have you here.
    Gentlemen, a year ago, the former Secretary of Health and 
Human Services, Tommy Thompson, made the following comment 
regarding the potential of terrorist attacks on U.S. 
agricultural when he said, and I quote. ``For the life of me, I 
cannot understand why the terrorists have not attacked our food 
supply, because it is so easy to do.''
    Because it is so easy to do.
    The focus of today's hearings is that of the potential 
threat. What are the terrorist intentions and capabilities? 
What materials, both natural and engineered, are available and 
have terrorist groups shown interest in an agricultural attack? 
That is the question we put to you today, and we look forward 
to hearing your testimony.
    Mr. Simmons. You can proceed in any way you wish. You can 
flip a coin, you can go alphabetically. I will leave it to you 
two gentlemen.

 STATEMENT OF JOSEPH W. REARDON, FOOD ADMINISTRATOR, FOOD AND 
    DRUG PROTECTION DIVISION, NORTH CAROLINA DEPARTMENT OF 
               AGRICULTURE AND CONSUMER SERVICES

    Mr. Reardon. Thank you, Chairman, my name is Joe Reardon, I 
am thankful to be here today--and Chairman Rob Simmons and 
Ranking Member Zoe Lofgren and distinguished members of this 
subcommittee. I would like to thank you for the opportunity 
today to offer this testimony. I have the privilege and honor 
to convey to the subcommittee--.
    Mr. Simmons. Gentlemen, if you could turn your microphone 
on that would be helpful.
    Mr. Reardon. Okay. I will start over again. Chairman Rob 
Simmons and Ranking Member Zoe Lofgren and distinguished 
members of the subcommittee. I would like to thank you for the 
opportunity to offer this testimony today.
    I have the privilege and honor to convey to the 
subcommittee the significance of protecting North Carolina 
agriculture, both economically and in terms of food production. 
My direct involvement with food safety at various levels for 
more than 24 years will hopefully provide the subcommittee a 
prospectus from the grassroots level.
    North Carolina is one of a handful of States that produces 
the majority of America's food supply. Our swine and turkey 
industries rank both second and our poultry industry ranks 
third in the nation. Agri-business contributes $59 billion 
annually to the State's economy and accounts for 21.5 percent 
of the State's income, and employs over 18 percent of our 
workforce.
    Thus, North Carolina's economic stability depends on agri-
business and, in turn, the Nation depends on North Carolina's 
food and agriculture. A significant challenge facing 
agriculture is that we do lack a full understanding of the 
vulnerabilities to agriculture.
    Taiwan learned firsthand the economic impact of foot and 
mouth disease. In 2002, the first year Taiwan port was cleared 
for export following the outbreak of 1997, their export levels 
were less than a half of 1 percent of the preoutbreak levels, 
quite devastating.
    When Exotic Newcastle Disease broke out in California. Our 
State, leaning forward, funded a project of $263,000 to conduct 
an assessment and education initiative to reduce the potential 
threat to our own commercial poultry industry valued at $2.1 
billion.
    Our assessment of the transportation sector revealed 
something quite alarming to us. North Carolina today receives 
1,300 birds a day through the United States Postal Service with 
over 70 percent of these birds having no visible formal health 
documentation accompanying those birds into our State. Birds 
are commingled during shipping, sorting and storage and may be 
transported to other States posing a national risk.
    But animal production facilities are at risk, but so is 
produce and other crops and not just from exotic diseases and 
terrorists. My department, in the first week of May, received a 
call from a local retail grocery chain describing a local 
complaint where a small child had bit into a strawberry with a 
sewing needle embedded in the product. Follow-up investigation 
suggested this to be an isolated incident.
    But in the case of broader-scale adulteration or serious 
injury, the impact would be felt statewide. As this is the peak 
week of strawberry season in North Carolina, this act alone 
could have placed a $15 million industry at risk. The former 
Secretary of Health and Human Services, Tommy Thompson said, 
``For the life of me, I cannot understand why terrorists have 
not attacked our food supply, because it is so easy to do,'' as 
quoted by the chairman.
    Committee members, unfortunately this is a true statement. 
We have hardened and highly critical visible metropolitan 
infrastructure. Agriculture becomes a ripe target or a highly 
visible target or an economically potent impact. A summary of 
the money spent on the entire counterterrorism efforts compiled 
by the Association of Food and Drug Officials, revealed that 
out of the $960 million in Federal funding given in 2003, 4.5 
percent of that funding went to plant and animal disease 
initiatives, while less than one half of 1 percent was devoted 
to protecting all other elements by the food supply.
    Securing agriculture presents unique challenges. I 
respectfully submit to you a portion of our recommendations 
with the remainder in my full testimony.
    NCDA recommends a current review of the funding allocation 
that is based on population in favor of formulas that will more 
accurately reflect the agriculture risk. For example, North 
Carolina, Sampson County has 1/12 of the population of 
Mecklenburg County, but it generates five times the farming 
cash receipts and is one of the most agriculturally productive 
regions in the world.
    In the same way that Centers for Disease Control and 
Prevention, CDC, has funneled bioterrorism funding for State 
departments of Health and Human Services, a dedicated stream of 
funding for State departments of agriculture with a mandate for 
preparedness is absolutely necessary.
    More than 80 percent of the food safety activities include 
inspections, investigations of food-borne illness, enforcement 
actions and response to emergencies involving food products are 
performed at the State and local levels in the United States, 
specifically departments of agriculture across this country. 
State personnel are, therefore, in an ideal position to provide 
food producing sector with outreach information, food defense 
strategies and serve as a key link between the food production 
system and law enforcement.
    We also request a formal review of the procedures and 
protocols for the movement of animals through the United States 
Postal Service facilities, taking into considerations findings 
of the North Carolina Exotic Newcastle Disease Project and the 
implications of those unregulated shipments on public health 
and the spread of agricultural diseases.
    Through my testimony today, I hope to have been effective 
in describing North Carolina's progressive stance in addressing 
the agro-terrorism threat. North Carolina understands emergency 
response issues, but we are anxious at how much remains to be 
done in this State and the rest of the Nation. States have the 
relationships to implement required programs to safeguard our 
food supply. We have developed a culture of food safety since 
1906, but we have yet to develop a culture of food defense.
    We appreciate the opportunity to address the challenges 
ahead, and I look forward to answering any questions that you 
may have regarding my testimony.
    [The statement of Mr. Reardon follows:]

               Prepared Statement from Joseph W. Reardon

    I would like to thank Chairman Rob Simmons, Ranking Member Zoe 
Lofgren, and Distinguished Members of the Subcommittee for the 
opportunity to offer this testimony. You are faced with a most 
challenging task of anticipating plans of terrorists and deciding 
between competing priorities to keep this nation safe and secure. My 
direct involvement with food safety at various levels for more than 24 
years will hopefully provide the Subcommittee with a perspective from 
the grassroots level.
    Today I have the privilege and honor to convey to the Subcommittee 
the significance of North Carolina's agriculture, both economically and 
in terms of food production. My testimony will address the threat of 
agro-terrorism and describe the potential impact of such an attack. I 
will conclude by delineating preparedness and mitigation activities 
that the State of North Carolina is currently engaged in, and 
respectfully submit to the committee several proposals for hardening 
one of our greatest assets and most critical infrastructures; the food 
supply from farm-to-fork.
    North Carolina is one of a handful of states that produces the 
majority of America's food supply. Our swine and turkey industries rank 
2nd and poultry industry ranks 3rd highest in the United States.\1\ We 
supply enough pork to feed lout of every 4 families in America and 
supply I in 7 turkeys at Thanksgiving. These industries, along with 
crops and associated agribusinesses, contribute $59 billion annually to 
the State's economy, account for 21.5 percent of the State's income, 
and employ over 18 percent of the work force.\2\ Thus, North Carolina's 
economic stability depends on its agribusiness and, in turn, the nation 
depends on North Carolina's food and agriculture.

THREAT TO AGRICULTURE AND POTENTIAL IMPACT
    An attack on this nation's agriculture system is likely to have an 
immediate, substantial, and permanent effect on our production 
capability and export opportunities according to the Congressional 
Research Service report titled, Agro-terrorism: Threats and 
Preparedness released February 4, 2005.\3\
    The foot and mouth disease (FMD) pellvirus, for example, persists 
on clothing and in animal tissue. Little skill or training is required 
for nefarious individuals to smuggle infected items or meat to the 
United States and expose susceptible animals, be they cattle or hogs. 
When we add to this equation over 20,000 hogs that leave NC every day 
and the likelihood that terrorists would infect several states 
simultaneously, we are certain to have a nationwide outbreak before we 
first detect the disease. These conclusions are consistent with the 
data garnered from the ``Crimson Sky'' FMD exercise series conducted by 
the National Defense University with our Department providing technical 
expertise. Findings of the disease modeling from this exercise 
indicated that if 2 farms were infected, FMD would spread to 12 states 
within 10 days.\4\ If 5 farms are initially infected, then the disease 
could reach 35 states within the same period of 10 days. A GAO report 
released in 2002 estimated that eradication may cost up to $24 
billion.\5\ Taiwan learned first hand the economic impact of foot and 
mouth disease. In 2002, the first year that Taiwan pork was cleared for 
export following the 1997 outbreak, pork exports were just over half of 
one percent of pre-outbreak levels.\6\
    A significant challenge facing agriculture is that we do not have a 
full understanding of our food and agriculture vulnerabilities. Aside 
from awareness of several worst-case scenarios, we have only 
rudimentary vulnerability data. One recent initiative to collect 
detailed vulnerability information was made as part of the Exotic 
Newcastle Disease (END) project conducted by the Department following 
an outbreak of the disease in California poultry. One of the most 
striking findings from this risk assessment is the unchecked mass 
movement of poultry, game birds, and other species such as turkeys 
through our United States Postal Service. Our assessment revealed that 
North Carolina receives as many as 1,275 birds a day from across the 
United States and over 70 percent of these birds gain entry without any 
formal disease testing.<SUP>7,</SUP> 8</SUP> These birds are commingled 
in the postal offices without proper biosecurity precautions and may be 
further transported to other states posing a national risk. In light of 
the persistent Avian Influenza outbreak in Asia, this situation is the 
potential agricultural equivalent of the ``biological agent release at 
a football stadium'' with a certain nationwide dispersion of sick 
animals.
    Animal production facilities are at risk, but so is produce and 
other crops; and not just from exotic terrorists' agents. The North 
Carolina Department of Agriculture & Consumer Services (NCDA&CS), in 
the first week of May 2005, received a call from a local retail grocery 
chain describing a customer complaint where a child bit into a 
strawberry with a sewing needle embedded in the product. Follow-up 
investigation suggested this to be an isolated incident, but in the 
case ofa broader scale adulteration or a serious injury, the impact 
would be felt statewide. As this is the peak of strawberry season for 
North Carolina, over $15 million is at risk.\9\
    The threat of agro-terrorism can be just as potent a weapon as the 
actual act. One documented case occurred in 1989 when a terrorist group 
phoned the US Embassy in Chile claiming to have contaminated grapes 
destined for the US with cyanide. Exhaustive surveillance efforts by 
the Food and Drug Administration revealed only three suspicious grapes 
on a dock in Philadelphia, PA. However, American supermarkets pulled 
all Chilean ftuit including peaches, blueberries, blackberries, melons, 
green apples, pears, and plums off shelves throughout the US resulting 
in the loss of an entire season's fruit sales from Chile at a cost of 
$200 million in lost revenue.\10\
    The former Secretary of Health and Human Services Tommy Thompson 
said, ``For the life of me, I cannot understand why the terrorists have 
not attacked our food supply because it is so easy to do.\11\ '' 
Unfortunately, this is a true statement. The NCDA&CS respectfully 
submit to you that we are not prepared for this threat. Homeland 
security funding has hardened critical infrastructures in America's 
population centers and this is consistent with the affinity of Al-
Qa`ida for high profile targets. However, as we harden highly visible, 
metropolitan infrastructures, greater pressures are placed on 
agriculture as a ripe target for an asymmetrical attack with high 
visibility and an economically potent impact.

NORTH CAROLINA PREPAREDNESS AND MITIGATION ACTIVITIES
    North Carolina has a long history of disaster preparedness efforts 
fine-tuned by repeated hurricanes. The State is proactive in 
identifying and mitigating new threats within the constraints of 
limited state budgets.
        <bullet> North Carolina formed a food safety and defense task 
        force in November 200 I in an effort to establish a unified and 
        coordinated approach to identify the vulnerabilities and 
        safeguard the food supply. The task force is co-chaired by 
        representatives from the North Carolina Department of Health 
        and Human Services and the North Carolina Department of 
        Agriculture and Consumer Services with membership from other 
        key state agencies, industry, and academia.
        <bullet> The Department provided the technical expertise to 
        conduct the Crimson Sky Exercise Series I alluded to previously 
        in addition to the follow-up exercises Crimson Winter and 
        Crimson Guard.
        <bullet> We have invested heavily in a Geospatial/Geographical 
        Information Systems (GIS) that not only serves Departmental 
        needs but reaches out to other vital agency partners in the 
        State including the State Bureau of Investigation, Division of 
        Emergency Management, Department of Health and Human Services, 
        Department of Environment and Natural Resources as well as 
        industry to provide a common operational picture for the State.
        <bullet> Under the Disaster Mitigation Act of 2000 that 
        directed states to develop a State Hazard Mitigation Plan, 
        North Carolina is the only state in the nation to include 
        infectious disease in the list of known and mitigatable hazards 
        such as floods, hurricanes, and earthquakes. The plan was 
        written and submitted in full partnership with the Department 
        of Health and Human Services and categorizes diseases by route 
        of transmission. This makes North Carolina eligible to receive 
        funding to mitigate a future infectious disease to prevent a 
        large-scale, economically costly outbreak.
        <bullet> We have hosted and participated in national level 
        symposiums to discuss environmentally, socially, and industry 
        acceptable methodologies of mass euthanasia and carcass 
        disposal that could be utilized in a large-scale livestock 
        disease eradication program. Concurrently, we are working on 
        alternative disease control strategies to eliminate the need 
        for such drastic methods of disease control.

ACTION NEEDED
    Securing agriculture presents unique challenges. I respectfully 
submit to you the following recommendations which augment those made in 
the testimony of Mr. David Miller before the Subcommittee on Emergency 
Preparedness, Science and Technology on April 12, 2005 and Dr. Thomas 
McGinn's testimony before the Senate Governmental Affairs Committee in 
November 2003. I would like to preface my remarks by saying that unique 
conditions exist in each state that provide an opportunity for 
development of innovative preparedness, mitigation, and response 
initiatives. Success will depend on identifying and enhancing these 
programs at the state level through federal funding.
        <bullet> NCDA&CS recommends a review of current funding 
        allocation that is based primarily on population in favor of 
        formulas that more accurately reflect agricultural risk. As 
        high agricultural density areas are inversely proportional to 
        human population centers, agriculture tends to receive 
        inadequate preparedness support. For example, North Carolina's 
        Sampson County has only 1/12th the population of Mecklenburg 
        County, but generates nearly 5 times the farming cash 
        receipts.<SUP>12,13</SUP> Sampson County receives little 
        homeland security funding, and yet is one of the most 
        agriculturally productive regions in the world.
        <bullet> In the same way that the Centers for Disease Control 
        and Prevention (CDC) has funneled bioterrorism funding for 
        state departments of health and human services, funding for 
        state departments of agriculture also needs to have a dedicated 
        funding stream with a mandate of preparedness. According to the 
        Association of Food and Drug Officials (AFDO), more than 80 
        percent of the food safety and security activities including 
        inspections, investigation of foodborne illnesses and consumer 
        complaints, enforcement actions, and response to emergencies 
        involving food products are performed at the state or local 
        levels in the US.\14\ State personnel, therefore, are in the 
        ideal position to provide the food producing sector with 
        outreach information, food defense strategies, and serve as the 
        key link between the food production system and law 
        enforcement. Unfortunately, out of $960 million federal 
        counterterrorism funding given to states in 2003, 4.5 percent 
        went to plant and animal disease initiatives while a mere 0.4 
        percent was devoted to protecting all other elements of the 
        food supply.\15\ Federal funding must reflect additional 
        demands for food defense.
        <bullet> We support the creation of a national consumer 
        complaint system to facilitate information sharing and 
        coordination among state and local agencies involved in food 
        safety and defense. This would enable timely, sector-specific, 
        yet nationwide notification of food producers, processors, and 
        inspectors of attacks on the food supply to facilitate 
        intervention and expanded surveillance actions.

        <bullet> We need to take one of the most severe agro-terrorism 
        diseases off the table by reducing the consequences of an FMD 
        epidemic. The only thing more daunting than FMD itself is our 
        nation's planned response to an outbreak which includes 
        euthanizing millions of animals based on the UK experience of 
        2001. Current disease control policy provides little incentive 
        for farmers to proactively remain disease free. A producer 
        whose animals are infected with FMD receives reimbursement by 
        the federal government for the loss of his stock. However, a 
        farmer with healthy animals receives no compensation, yet he 
        faces a likely state-wide quarantine that prevents him from 
        marketing his meat or milk product while still incurring the 
        expense of feeding and caring for his livestock. Therefore, 
        farmers that maintain disease free animals may encounter an 
        economic situation more dire than those with infected 
        livestock.
    We request the creation of a multi-agency taskforce with decision 
authority to embrace modern technology for diagnosis, surveillance, and 
vaccination as well as address policy issues that prevent the 
implementation of a modern disease control program. These issues, 
including the need for ``cow-side'' testing were highlighted in the 
recent GAO report on protecting agriculture.\16\
        <bullet> Disease simulations, as well as national and 
        international disease outbreaks, have shown that laboratory 
        capacity can be a limiting factor in disease control. While we 
        fully support strengthening the national laboratory system 
        through initiatives such as the National Animal Health 
        Laboratory Network (NAHLN), Laboratory Response Network (LRN), 
        and upgrades to the National Veterinary Services Laboratory in 
        Ames, Iowa, equal considerations should also be given to state 
        agriculture laboratory facilities which routinely service their 
        crop, food, and livestock industries. State laboratories will 
        be the first line of defense and must provide needed surge 
        capacity should an outbreak occur.
        <bullet> We strongly urge the continued support of state based 
        Geographic Information Systems (GIS) initiatives. GIS allows 
        the mapping of production facilities, production plants, and 
        retail establishments to quickly assess the scale of the 
        incident, determine populations at risk, and appropriate the 
        required resources during an incident response. State GIS 
        allows us to leverage our close relationships with stakeholders 
        in agriculture production, processing, transport, and retail to 
        obtain validated data which is available for federal response 
        needs.
        <bullet> We request a formal review of procedures and protocols 
        for movement of animals through United States Postal Service 
        facilities taking into consideration the findings of the END 
        project and the implications of unregulated shipments on public 
        health and the spread of agricultural diseases.
        <bullet> Lastly, we request support for the North Carolina Food 
        and Agriculture Defense Project which strives to develop, in 
        partnership with sector specific industries, detailed 
        mitigation, response, and recovery plans and incorporate new 
        technologies designed to reduce the overall effects and impact 
        from any terrorist act targeting the State's food supply. We 
        need a state program, supported by a national policy 
        environment, to assess the vulnerabilities of the food chain 
        using a nationally recognized model. Information gathered from 
        these assessments will be appropriately shared with USDA or FDA 
        to be used in the refinement of templates for state specific 
        plans.

SUMMARY
    Through my testimony today, I hope to have effectively described 
North Carolina's progrsive stance in addressing agro-terrorist threats. 
North Carolina understands emergency response issues, but we are 
anxious at how much remains to be done in our State and the rest of the 
nation. States have the relationships and share the geographical space 
necessary to develop the required programs to safeguard our food 
industries. We have developed a culture of food safety since 1906 with 
the enactment of the Federal Food, Drug, and Cosmetic Act. We have yet 
to develop a food defense culture.
    We appreciate the opportunity to address the challenges ahead. I 
look forward to answering any questions you may have regarding my 
testimony.

LIST OF REFERENCES
1. North Carolina Department of Agriculture and Consumer Services 
[NCDA&CS], Agricultural Statistics Division. ``How North Carolina 
Agriculture Compares With Other States 2004 Production.'' Available at: 
httn://www.ncagr.com/stats/nc<INF>--</INF>rank/ncrallyr.htm. Accessed 
May 11, 2005.

2. Hayes, Craig. North Carolina Department of Agriculture and Consumer 
Services [NCDA&CS], Agricultural Statistics Division. Personal 
Communication. Received May 9, 2005.

3. Monke, Jim. Congressional Research Services [CRS]. Agro-terrorism: 
Threats and Preparedness Updated February 4, 2005. February 2005.

4. McGinn, Tom and Colonel John Hoffinan. North Carolina Department of 
Agriculture and Consumer Services [NCDA&CS], Emergency Programs 
Division. ``Crimson Sky FMD Terrorist Attack Outcome.'' Presented 
September 2002.

5. United States General Accounting Office [GAO). Foot and Mouth 
Disease: To Protect US Livestock, USDA Must Remain Vigilant and Resolve 
Outstanding Issues. GAO-02-0808: July 2002.

6. United States Department of Agriculture [USDA] Foreign Agricultural 
Service. Taiwan Livestock and Products OIE Accepted Taiwan's FMD-Free 
with Vaccination Status 2003. July 2003.

7. North Carolina Department of Agriculture and Consumer Services 
[NCDA&CS]. ''North Carolina Exotic Newcastle Disease Final Report Phase 
1.'' Submitted to North Carolina Council of State. February 2004.

8. North Carolina Department of Agriculture and Consumer Services 
[NCDA&CS], North Carolina Exotic Newcastle Disease Project 2003, 
Investigation of Bird Container Movement. Appendix B is maintained in 
the Committee's file.

9. North Carolina Department of Agriculture and Consumer Services 
[NCDA&CS], Agricultural Statistics Division. ``Farm Income: Cash 
Receipts From Farming By Commodity, North Carolina, 2000-2003.'' 
Available at: http://www.ncagr.com/stats/cashrcpt/cshcomyr.htm. 
Accessed May 12, 2005.

10. U.S. Food and Drug Administration [FDA). ``An Introduction to Food 
Security and AwarenessCourse (FS25IA).'' Available at: http://
www.compliancewire.com. Accessed May 11, 2005.

11. ABC News. ``Thompson Resigns from Bush' s Cabinet. `` Available at: 
http://abcnews.go.com/politics/wirestory?id=301259. Accessed May 11, 
2005.

12. NC State University Agricultural and Resource Economics. ``County 
Agribusiness Values.'' Available at: http://www.ag--econ.ncsu.edu/
faculty/walden/counties.htm. Accessed May 11, 2005.

13. U.S. Census Bureau. ``Census 2000 Redistricting Data (Public 94-
171) Summary
File Geographic Area: North Carolina--County.'' Available at:
http://factfinder.census.gov/servlet/
GCTTable?<INF>--</INF>bm=y&context=gct&-
ds<INF>--</INF>name=PEP<INF>--</INF>2004<INF>--</INF>EST&-
mt<INF>--</INF>name=PEP<INF>--</INF>2004<INF>--</INF>EST<INF>--</INF>GCT
T1<INF>--</INF>US9&tree
<INF>--</INF>id=804&-redoLog=true&-<INF>--</INF>caller=geoselect&-
geo<INF>--</INF>id=04000US37&-format=ST-2<SUP><square (></SUP>ST-
2S&<INF>--</INF>lang=en. Accessed May 11, 2005.

14. Association of Food and Drug Officials [AFDO]. ``The Association of 
Food and Drug Officials Comments to the U.S. House of Representatives 
Energy and Commerce Committee.'' Available at: http://www.afdo.org/
afdo/position/bt.cfm. Accessed May 12, 2005.

15. Association of Food and Drug Officials [AFDO]. ``AFDO Position on 
Protecting the Food and Agriculture Infrastructure. Appendix A.

16. United States General Accounting Office [GAO). Homeland Security: 
Much Is Being Done to Protect Agriculture from a Terrorist Attack, but 
Important Challenges Remain. GAO-05-214: March 2005.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Simmons. Thank you very much for that testimony. Before 
we get into questions, we will ask Dr. Casagrande to provide 
his testimony.
    You will notice we have a 5-minute clock. We are a little 
liberal with that, which is fine, but feel free to summarize 
parts of your testimony if it is extensive.

   STATEMENT OF ROCCO CASAGRANDE, MANAGING DIRECTOR, GRYPHON 
                           SCIENTIFIC

    Mr. Casagrande. Good afternoon, Mr. Chairman and members of 
the committee. I greatly appreciate the chance to appear before 
you today to offer my testimony on the nature of the threat to 
U.S. agriculture. The threat to U.S. agriculture is primarily 
economic. Agriculture disease agents intentionally spread 
amongst crops or livestock in the U.S. have the potential to 
cause billions of dollars of damage to the U.S. economy.
    These losses will be incurred from disease control costs 
and associated reductions in tourism, food processing, 
transportation and trade. It is my opinion that U.S. 
agriculture is threatened by a wide variety of actors, from 
States and economic competition with the United States to 
fringe animal rights groups to lone criminals, to Al-Qa`ida.
    The variety of a threat of an attack on the U.S. 
agriculture system is borne out of two main factors. One the 
technological barriers to an attack are easily surmountable by 
even technically unsophisticated actors; and, two, an attack on 
agriculture would help fulfill the goals of many State and 
nonstate actors.
    Let me begin by commenting on the first factor, that the 
technological barriers to an attack are easily surmountable. 
Influencing this factor is the nature of the disease agents 
themselves, the pathogens, that may be used in an attack on 
agriculture. The pathogens that are most dangerous to U.S. 
agriculture are those contagious agents that can spread 
explosively in a herd or between farms.
    The simple direct exposure of animals or plants to infected 
material--such as a tainted cloth dropped into an animal pen or 
handfuls of infected plant material thrown into fields--may 
begin an outbreak that affects thousands to millions of animals 
or acres or crops. Further facilitating the use of agriculture 
pathogens is the fact that they are easily handled by even 
technically unsophisticated actors. First of all, the most 
contagious agents do not cause significant disease in humans, 
enabling the manipulation of the agent in rudimentary 
facilities, such as basements or farms.
    Once smuggled into the country, enough agent could be 
manufactured for an attack by the intentional infection by 
plant cuttings or captive animals. These living factories could 
produce kilograms of infected material that could then be 
introduced into fields or pens all over the United States.
    Unfortunately, pathogens of this kind are not particularly 
rare. Foot and mouth disease, Rinderpest, Newcastle Disease, 
African Swine Fever, wheat smut and rice blast few of the 
diseases that could be used and have all of the qualities 
described above. These pathogens are endemic to the developing 
word, and an adversary need only find disease outbreaks to find 
the source of their agent. It is not only the nature of the 
dangerous agricultural pathogens, but also the nature of modern 
agriculture systems that facilitates an attack.
    Modern U.S. agriculture is vast, mobile and consolidated. 
Its vastness implies that large feed lots and farms are almost 
physically impossible to secure. The livestock industry is 
mobile. Animals are moved between States to various facilities 
that lean, fatten and finish them. This movement enables 
infected animals to come in contact with thousands of other in 
facilities all across the country. Also the U.S. agriculture 
industry is highly consolidated an attack that affects even one 
processor would affect a significant portion of the industry.
    U.S. agriculture is dominated by many big businesses that 
employ tens of thousands of Americans. The shares of these 
businesses, the commodities they produce and the futures 
derived from them comprise a significant portion of our 
financial markets.
    Because of the economic hardship that a disease outbreak 
can bring, even minor outbreaks or rumors of outbreaks can 
create shockwaves within the stocks and future markets, causing 
the overnight loves billions of dollars in market value.
    When an outbreak is identified, the system to control and 
eradicate disease leads to further economic loss. Exports are 
prevented to halt the spread to our trading partners. To 
prevent the spread of disease within our country, agricultural 
movement is halted and the transportation in agricultural areas 
may be disrupted. When an outbreak is identified on a farm, the 
diseased animals and all animals at risk of infection are 
slaughtered.
    Taken together, these qualities of U.S. agriculture imply 
that even an attack on a few animals or plants can be spread to 
a significant portion of the industry quickly due to the nature 
of the industry. Even if the disease does not spread far, our 
disease control efforts will magnify the costs of the disease 
far beyond the cost of the plants and animals directly 
infected. Further, even outbreaks that are rapidly identified 
and controlled can cause losses to market fluctuations. When 
these qualities of U.S. agriculture are considered along with 
the qualities of agricultural pathogens, a grim picture of the 
technical barriers to an attack come into focus.
    Because agricultural pathogens are relatively easy to find, 
acquire, manipulate and use to strike thousands of animals or 
plants, adversaries with little technical skill can attempt an 
attack. Because of control efforts, movement restrictions and 
market forces, even an attack that reaches only a single farm 
may inflict damage beyond its proportions.
    For these reasons, an attack on agriculture is within the 
reach of any State or substate group or even an individual. 
Because technical factors only widen the field of actors who 
can threaten agriculture, let me turn your attention to the 
second factor influencing the threat, that an attack on 
agriculture is consistent with the goal of several groups. 
Rival States have significant financial motivation to attack 
U.S. agriculture. By initiating a disease outbreak in the U.S., 
rival States could capture our export markets.
    For radical ecologist and animal rights groups, an attack 
on agriculture is a means and an end. These groups loathe the 
treatment of animals in U.S. farming systems and the fact that 
a significant portion of our U.S. crops are genetically 
modified. For these groups, an attack on agriculture is not a 
means to sow economic hardship or gain profit, but to destroy 
the industry that offends them. Criminals who wish to profit 
from an attack on agriculture are another type of actor who may 
threaten U.S. agriculture.
    As stated above, significant losses may be inflicted due to 
market changes. Similarly, money can be made through the 
manipulation of futures markets or the short of stocks of 
affected companies.
    Lastly, terrorists bent on destroying the U.S. could use an 
attack on agriculture as part of a larger campaign. Groups like 
Al-Qa`ida could seek an agriculture attack as a simple means to 
undercut one of our greatest economic strengths. I do not mean 
to imply that an attack on agriculture is imminent.
    The factors influencing the threat to agriculture have been 
in place for several decades, and yet no large attack has been 
executed. What can be said with some certainty-- although an 
attack on agriculture may never come, natural agricultural 
disease outbreaks strike the U.S. with some frequency.
    Most measures that can be taken to reduce the damage of an 
attack on agriculture will likely help the natural disease 
outbreaks that will surely come. Investments in animal tracking 
and disease control systems will surely deliver a concrete 
benefit, even if the threat of an attack never materializes.
    Thank you.
    [The statement of Mr. Casagrande follows:]

            Prepared Statement from Rocco Casagrande, Ph.D.

    Good afternoon, Members of the Committee. I greatly appreciate the 
chance to appear before you today to offer my testimony on the nature 
of the threat to US agriculture.
    The threat to US agriculture is primarily economic. Agricultural 
disease agents, intentionally spread amongst crops or livestock in the 
US, have the potential to cause billions of dollars of damage to the US 
economy. These losses will be incurred from disease control costs and 
associated reductions in tourism, food processing, transportation and 
trade.
    It is my opinion that US agriculture is threatened by a wide 
variety of actors, from states in economic competition with the US, to 
fringe animal rights groups, to lone criminals to Al-Qa`ida. The 
variety of the threat of an attack on the US agricultural system is 
born out of two main factors: 1) the technological barriers to an 
attack are easily surmountable by even technically unsophisticated 
actors, and 2) an attack on agriculture would help fulfill the goals of 
many state and non-state actors.
    Let me begin by commenting on the first factor: that the 
technological barriers to an attack are easily surmountable. 
Influencing this factor is the nature of the disease agents, the 
pathogens, that may be used in an attack on agriculture. The pathogens 
that are most dangerous to US agriculture are those contagious agents 
that can spread explosively in a herd or between farms. The fact that 
these pathogens are highly contagious eliminates the need of the 
adversary to manufacture a complicated device to expose hundreds or 
thousands of animals or plants to the pathogen during the attack. No 
weaponization of the pathogen, and the complicated equipment required 
for that process, is necessary. The simple direct exposure of animals 
or plants to infected material (such as a tainted cloth dropped into an 
animal pen or handfuls of infected plant material thrown into fields) 
may begin an outbreak that affects thousands to millions of animals or 
acres of crops.
    Further facilitating the use of agricultural pathogens is the fact 
that they are easily handled by even technically unsophisticated 
actors. First of all, the most contagious agents do not cause 
significant disease in humans. The fact that an adversary does not need 
to protect themselves from their agent of choice obviates the need for 
specialized protective equipment and facilitates manipulation of the 
agent in rudimentary facilities such as basements or farms. 
Furthermore, these pathogens are relatively hearty; many can survive in 
isolated tissues from a plant or animal or on cloth for weeks. No 
special storage conditions are required during smuggling of the agent 
into the US. Lack of a requirement for special storage conditions 
suggests that the agent could be smuggled in easily concealable or 
disguised containers, such as wine bottles, Tupperware or, for those 
agents that survive on cloth, impregnated in the clothing of the 
adversary. Once smuggled into the country, enough agent can be 
manufactured for an attack by the intentional infection of bins of 
plant cuttings or captive animals. These living factories could produce 
kilograms of infected material that could then be introduced into 
fields or pens all over the US.
    The nature of the pathogens that could be used on agriculture, 
therefore, eliminates the need for sophisticated laboratory equipment 
for the acquisition, production, processing or dissemination of the 
agent. Unfortunately, pathogens of this kind are not particularly rare. 
Foot and mouth disease, Rinderpest, Newcastle disease, African swine 
fever, wheat smut and rice blast are just a few of the diseases that 
could be used that have all of the qualities described above. These 
pathogens are endemic to the developing world and an adversary need 
only find disease outbreaks to find a source of their agent.
    It is not only the nature of dangerous agricultural pathogens, but 
also the nature of the modern agricultural system that facilitates an 
attack. Modern US agriculture is vast, mobile and consolidated. Its 
vastness implies that large feedlots and farms are almost impossible to 
physically secure, enabling even incautious actors to gain access to 
their targets. The livestock industry is mobile; animals are moved 
between states to various facilities that wean, fatten and finish them. 
This movement enables infected animals to come into contact with 
thousands of others in facilities across the country. Also, the US 
agricultural industry is highly consolidated; an attack that affects 
even one processor would affect a significant portion of the industry.
    US agriculture is dominated by big businesses that employ tens of 
thousands of Americans. The shares of these businesses, the commodities 
they produce and the futures derived from them, comprise a significant 
portion of our financial markets. Because of the economic hardship that 
a disease outbreak can bring, even minor outbreaks or rumors of 
outbreaks can create shockwaves within stock and futures markets, 
causing the overnight loss of billions of dollars in market value.
    When an outbreak is identified, the system to control and eradicate 
the disease leads to further economic losses. Exports are halted to 
prevent the spread to our trading partners. Although our exports are 
halted, the demand for the commodity does not diminish, and importing 
nations will seek out other suppliers for goods the US can no longer 
supply. Once the importers establish a relationship with a new 
supplier, the US may find it difficult to recapture the lost markets; 
therefore, economic losses can persist for many years after the 
outbreak is stamped out. To prevent the spread of the disease within 
the country, agricultural movement is halted and transportation in 
agricultural areas may be disrupted. These movement restrictions will 
affect the transportation and tourism industries and may cause farmers 
unaffected by the disease to slaughter their animals due to the 
inability to obtain fodder. When an outbreak is identified on a farm, 
the diseased animals and all animals at risk of infection (usually all 
those in the affected premises) are slaughtered. Oftentimes, those 
animals at risk of infection reside at a different farm near a facility 
where an infected animal was found; these animals are often killed to 
create disease firebreaks.
    Taken together, these qualities of US agriculture imply that even 
an attack on a few animals or plants can be spread to a significant 
portion of the industry quickly due to the nature of the industry. Even 
if the disease does not spread far, our disease control efforts will 
magnify the cost of the disease far beyond the cost of the plants or 
animals directly affected. Further, even outbreaks that are rapidly 
identified and controlled can cause losses due to market fluctuations.
    When these qualities of US agriculture are considered along with 
the qualities of agricultural pathogens, a grim picture of the 
technical barriers to an attack comes into focus. Because agricultural 
pathogens are relatively easy to find, acquire, manipulate and use to 
strike thousands of animals or plants, adversaries with little 
technical skill can attempt an attack. Because of control efforts, 
movement restrictions, and market forces, even an attack that only 
reaches a single farm may inflict damage beyond its proportions. For 
these reasons, an attack on agriculture is within the reach of almost 
any state or sub-state group, or even an individual.
    Because technical factors only widen the field of actors who can 
threaten agriculture, let me turn your attention to the second factor 
influencing the threat--an attack on agriculture is consistent with the 
goals of several groups--by addressing the motivation of several types 
of adversaries in turn.
    Rival states have a significant financial motivation to attack US 
agriculture. By initiating a disease outbreak in the US, rival states 
could capture our export markets, causing a shift of billions of 
dollars a year from the US. States prosecuting a shadow war with the US 
may wish to harm us economically even if they do not directly benefit. 
The motivation to execute such an attack is underpinned by the 
uncertainty that an attack will be distinguishable from a natural 
disease outbreak. What would differentiate the accidental importation 
of FMD-infected swine from China to Taiwan from the intentional 
infection of swine shipped to Taiwan? Furthermore, the ambiguity of the 
US response to an attack on our agriculture may embolden a state 
adversary. A terrorist attack that kills Americans will surely invite 
military retaliation. However, would the President risk the lives of 
soldiers if a rival nation simply caused the destruction of our corn or 
cows?
    For radical ecological and animal rights groups, an attack on 
agriculture is a means and an ends. These groups loathe the treatment 
of animals in the US farming system or the fact that a significant 
portion of US crops are genetically modified. To these groups, an 
attack on agriculture is not a means to sew economic hardship or to 
gain profit, but to destroy the industry that offends them. These 
groups, and their less radical allies, have issued statements wishing 
for the introduction of devastating disease into the US. The lack of 
human deaths in an agricultural attack is consistent with these groups 
somewhat non-violent operations.
    Criminals, who wish to profit from an attack on agriculture, are 
another type of actor who may threaten US agriculture. As stated above, 
significant losses can be inflicted due to market changes when a 
disease outbreak is discovered. Similarly, money can be made through 
the manipulation of futures markets or selling-short of the stocks of 
affected companies. Furthermore, the threat of an attack can be used to 
blackmail agricultural interest groups and large companies. These 
criminals could be acting alone (due to the facility of the execution 
of an agricultural attack) or could be in a large group, such as a 
company wishing to cripple a rival.
    Lastly, terrorists bent on destroying the US could use an attack on 
agriculture as part of a larger campaign. Groups like Al-Qa`ida could 
seek an agricultural attack as a simple means to undercut one of our 
greatest economic strengths.
    All of these groups have the means to attack agriculture and each 
group has goals that would be at satisfied such an attack, even if that 
attack fails to spread to a significant portion of the targeted sector 
due to the economic costs that even minor outbreaks can cause. For many 
of these groups, such as countries jockeying for economic advantage and 
radical ecological and animal-rights groups, no other type of attack 
can satisfy their goals. To address this threat, new policies and 
regulations that eliminate the ambiguity in the US response to an 
attack on agriculture and that reduce our adversaries' potential 
benefit from such an attack are needed.
    I do not mean to imply that an attack on agriculture is imminent. 
The factors influencing the threat to agriculture have been in place 
for several decades and yet no large attack has been executed. It is 
possible that sub-state groups use only weapons that are close at hand 
and are unlikely to travel to exotic locations to acquire their agent. 
It is possible that the spread of a plant or animal disease pales in 
comparison to the theater caused by car bombs or other, more 
conventional and common types of attacks.
    What can be said with some certainty is that, although an attack on 
agriculture may never come, natural agricultural disease outbreaks 
strike the US with some frequency. Most measures that can be taken to 
reduce the damage of an attack on agriculture will likely help in 
natural disease outbreaks that have happened before and will happen 
again. Investments in animal tracking systems and disease control 
assets will surely deliver a concrete benefit even if an attack never 
materializes.
    The threat to agriculture stems from two main factors: the 
technological barriers to an attack are easily surmountable by the 
least technically sophisticated groups and an attack on agriculture 
serves the stated goals of state and non-state actors. Groups that have 
the motives and the means to attack agriculture include states in 
economic rivalry with the US, foreign terrorist groups, criminals and 
domestic groups on the fringe of animal rights and ecological issues, 
Tempering this threat assessment is that, although the vulnerability of 
agriculture has existed for several decades and groups that have the 
motives and means to exploit this vulnerability have existed for an 
equally long time, no large attack on agriculture has occurred in the 
US or elsewhere. However, steps that can be taken to prevent and attack 
or mitigate its damage will also benefit the US economy when an 
inevitable natural disease outbreak strikes our country.

    Mr. Simmons. Thank you for those comments. My question, 
first question, would go to Dr. Casagrande. You made the 
statement that the threat to U.S. agriculture is primarily 
economic. I guess as a casual observer, somebody reads the 
paper and watches TV. I was intrigued by the case involving a 
woman who found a finger in her chili. That was pretty 
exciting.
    Ms. Lofgren. That was in my district.
    Mr. Simmons. Yes. I stopped buying chili for a while after 
reading that story. I expect that the chili sales probably went 
down as people focused on the finger in the chili. So there was 
a significant impact even though there is no evidence that 
anybody was hurt.
    Let me expand that example to one that occurred in my 
district involving avian influenza. The largest numbers of egg-
laying chickens, I believe, are in Connecticut--and they happen 
to be in my district--approximately 8 million laying helps. 
They had a very suspicious outbreak of avian influenza that 
occurred in a portion of a coop near an unsecured door--due to 
OSHA regulations--near a wooded area. The birds had been 
segregated since they had been chicks. There was no cross 
fertilization, as you indicated, with new birds being 
introduced in either to the flock or to the house.
    So there is some suspicion of human intervention. The 
policy of the Department of Agriculture was to destroy all 7 
million birds. We intervened with the Department of Agriculture 
and got permission for a vaccination program, which was 
initiated over a year ago and was entirely successful, entirely 
successful.
    Now, elimination of the birds would have cost anywhere from 
$80--to $100 million, not only to destroy the birds but then 
you have to dispose of them in a very expensive fashion.
    The vaccination program costs about $20 million. We don't 
reimburse for vaccinations, so the chicken farmers had to eat 
that cost. But nonetheless, this introduction of a disease into 
a very small number of birds in a very large population had 
huge economic impacts. That is the kind of attack that I would 
visualize.
    Is that what you are talking about when you say the primary 
threat is economic? It is not that somebody is going to be 
poisoned individually?
    Mr. Casagrande. Yes, Mr. Chairman, thank you for the 
question. That is just one of a number of very many examples 
that exist throughout history. Another recent example was 
during the foot and mouth disease outbreak in the U.K. and 
parts of the rest of Europe. The consumption of beef in the 
U.S. actually dropped, even though foot and mouth disease does 
not affect people significantly.
    It was said that there was some confusion between foot and 
mouth disease and mad cow disease. People watching the media 
were confused as to where the outbreak was taking place and 
what the risk was to the U.S. so it doesn't even need to occur 
here to have economic impact.
    Another example that you might be familiar with the is 
Chilean grape scare, when there was some laboratory results 
that may have suggested that there was some cyanide in Chilean 
fruit. Well the consumption of fruit from all of South America 
dropped, whether it was grapes or other type of fruit.
    So even though--no one died as a result of that. Even 
though the risk to an individual was extremely small, these 
attacks can have a devastating economic impacts well beyond 
their direct effect.
    Mr. Simmons. So if, in fact, the nature of the attack is on 
the food supply, but it is actually an economic attack, then 
our response to it has to be precise, we have to have the 
intelligence capabilities either to prevent or to assess--once 
the attack occurs, and to limit the economic damage, which is 
the real damage, and then to provide reassurance to the public 
that their health is not at risk. Because, again, part of the 
point of a terrorist attack is to change behaviors to extend 
the economic impacts through fear.
    Do you feel--and I know my time is almost gone. Do you feel 
that in the case of you, Mr. Reardon, your State or you, Dr. 
Casagrande, that the United States of America is prepared to 
respond to these types of attacks?
    Mr. Reardon. Partially, Mr. Chairman, I know North Carolina 
has worked real hard in preparedness in some areas. However the 
issue that you brought up about economic stability and right 
siding that industry that may be affected by that act of 
terrorism, I would say we are not prepared for. There is a lot 
of work that we need to do to develop capability and capacity.
    When we talk about adding--reassuring the public that that 
product is safe again or that they should consume that product 
again, it is going to take a lot of work by State agencies at 
the local level, a lot of testing, a lot of working hand in 
hand with industry to prove to the consuming public take that 
product is safe to consume again. So we have got to have some 
capabilities and capacities at the State level, Mr. Chairman, 
we don't have today.
    Mr. Casagrande. Mr. Chairman, I would like to respond, if I 
may, as well. I think you made two excellent points, that one, 
our protocols for responding to disease outbreaks, especially 
in animals needs to be examined closely. There is an excellent 
journal article published by Roger Breeze, formerly of the 
USDA, where he examines our current animal disease control 
policy and looks at the costs of vaccination versus culling. I 
would point your attention to that article.
    Your second point about public education, I think that is 
vital to limit the damage, economic damage of attacks, even 
ones that don't directly affect the food supply, like foot and 
mouth disease, to limit the economic damage.
    Mr. Simmons. I thank you both for your responses.
    Now I yield time to the ranking member of the subcommittee, 
Ms. Lofgren.
    Ms. Lofgren. I thank you very much. As we listen to you, it 
seems that although many people have worked hard in good faith, 
we have got some challenges in this arena that we may not even 
fully understand yet from your testimony.
    Mr. Reardon, I was interested that we might actually lack a 
full understanding of our vulnerabilities. I am wondering if 
you could tell us with specificity, at least some of the 
elements that we are missing on that sort of vulnerability scan 
in this arena.
    Mr. Reardon. Thank you for the question, Congresswoman 
Lofgren. I think we do lack a full understanding of the 
vulnerabilities. We as a country have thought that when there 
was an issue at hand, that education alone may be enough. But I 
am going to suggest to the committee that we must do a complete 
vulnerability study of all of the sectors of food processing 
today, whether it is on the farm with livestock, whether it is 
within the processing, whether it is within the storage and 
then the final sale.
    What we learned from the Exotic Newcastle Disease is simply 
that there were things that we did not know in our 
investigation that were revealed by acts of our own that may 
very well contribute to a tremendous cost to our own industry. 
Those kinds of vulnerabilities are there in a lot of places.
    I think when you look at allocation of money and spending 
that money judiciously, if you will, the best thing to do is to 
do a complete vulnerability study, working with the Federal 
Government, also the State government and the local government, 
where we have the trust with those people that own and operate 
these facilities and that own livestock.
    It is our responsibility to identify what the risks are 
before we start allocating moneys in a broad way. We need to 
know where we are spending our money. A component to that that 
we don't have at the State level--and the chairman spoke about 
it--is the intelligence. We need to know what the threats are 
so that when we do a vulnerability assessment of those 
industries, we know what the opportunity of introduction.
    Then from that, we will develop the mitigation steps to 
reduce the likelihood of introduction of either a disease or a 
chemical or a biological. We need to be smart at how we go 
about this, but we need to go about getting it done.
    Ms. Lofgren. I assume if we are doing a vulnerability study 
for terrorism, the Homeland Security would have to play a lead 
and then bring in other agencies that have more expertise in 
agriculture. Would you both agree with that premise?
    Mr. Reardon. I would answer that if I could, and then turn 
it over to my companion here. I think the thing that we are 
seeing is that Homeland Security has done a good job developing 
the NIPP, National Infrastructure Protection Plan. They are 
doing good work with the sector specific. The piece missing is 
the integration of the local and State governments. We must 
play--and we do play--a critical role in that piece and I would 
like to see that further.
    Ms. Lofgren. If I can--I am not from a rural area. I am 
from Silicon Valley, but we hear that complaint from State and 
local governments about everything, not just agriculture, it is 
everything--I think there is some truth to that. I don't think 
we are communicating that well.
    I am wondering--well, I don't want to cut off Dr. 
Casagrande. But I am interested, Mr. Reardon, in what you have 
been told by DHS in this area. I mean, are you in the State 
level given information?
    Mr. Reardon. Thank you again, Congresswoman Lofgren. We are 
given limited or no intelligence to our threats to agriculture. 
What I am finding at the State level, and I can speak for a 
variety of States, along with other boards, is that States are 
leaning forward with this, we know that it is our 
responsibility to protect the food supply.
    However, we could be more effective judiciously and more 
effective costwise if we had greater interaction with Homeland 
Security and especially some line on funding. What we are 
finding from State Departments of Agriculture, the people where 
the rubber meets the road with food safety, we do not have a 
funding source like CDC is providing to public health. So that 
particular piece is missing.
    Ms. Lofgren. Dr. Casagrande, you were just about to answer.
    Mr. Casagrande. No problem, Madam Representative. Well, let 
me reinforce the statements of Mr. Reardon that some States 
have taken it upon themselves to include agriculture in their 
intelligence gathering and analysis systems. Some States, to my 
knowledge, like Arizona and Iowa, have included agriculture 
representatives at the State level in their intelligence fusion 
centers, so representatives of law enforcement and public 
safety and agriculture and public health are all together in 
this one center. I think that is a model that the U.S. Federal 
system could learn from.
    Ms. Lofgren. I have 14 seconds left, so I will yield back 
the balance of my time.
    Mr. Simmons. Hold those 14 seconds.
    We now yield to the chairman of the full committee, Mr. Cox 
from California.
    Mr. Cox. Thank you very much, Mr. Chairman, thanks both to 
your witnesses, who are both very well prepared to talk with us 
about agro-terrorism today.
    I think what we have heard so far is a stark illustration 
of the difference between threat and vulnerability, ``threat'' 
being a term of art in the intelligence world meaning terrorist 
capabilities, plans and intentions. Nothing that I have heard 
in the testimony thus far reveals any new information about 
terrorist capabilities in this area, or actual plans, or 
intentions, but what I have heard is that the vulnerability is 
significant.
    I want to make sure that we are all on the same page and 
that I am interpreting your testimony correctly. I have before 
me a CRS report for Congress that is updated through February 
4, 2005. The title of it is Agro-Terrorism Threats and 
Preparedness. CRS is the Congressional Research Service.
    According to this report, bioterrorism is mostly a 
theoretical consideration. Would you both agree with that?
    Mr. Casagrande. If I may answer that, Mr. Representative. 
Yes. I think we have very little data on terrorist motivations 
and what they want and what their plans are. If we had that 
data, we would stop them. However, if we compare what we 
presented as the vulnerabilities to the technical 
sophistication required to exploit those vulnerabilities, we 
can begin to pare down the actors that could affect us.
    Then if we look at those terrorists-stated motives, we can 
compare that with what can be accomplished by an attack on 
agriculture and see of those remaining actors, who would want 
to attack our agriculture. Beyond that, we don't have any data. 
So we can't really say that these people will attack us at any 
given time.
    Mr. Cox. Mr. Reardon.
    Mr. Reardon. Yes. Mr. Chairman, I would have to agree with 
that statement is that it hedges on intelligence. From the 
State perspective, a lot of times we are not in the loop, if 
you will, with having that information to really summarize 
exactly what the vulnerabilities are.
    I think what you said, they all interact. You have got to 
know what the threat is to understand what the vulnerability 
is. From the State level, we don't get the State information to 
really evaluate what the State vulnerabilities are.
    Mr. Cox. Well, I think it is useful to parse the 
vulnerabilities. Usually we want to make all of these things 
available in a comprehensive analysis, but studying our 
vulnerability is something we have a little more control over.
    Mr. Reardon. Absolutely.
    Mr. Cox. I don't want to trivialize this whole topic by 
saying it is a theoretical threat at the moment, because it was 
merely a theoretical threat that airplanes were going to be 
used as missiles and flown into buildings.
    It took some forethought to imagine that before it 
happened. As we know, there was, in fact, a national 
intelligence estimate prepared before 9/11 that was authored 
the chairman of the National Intelligence Council, who was the 
former staff director of this committee, that said that Al-
Qa`ida could fly airplanes into buildings in Washington D.C., 
exactly what happened.
    It was just theory, but imagining that before it happened, 
had we acted more aggressively on it, would have been a very 
useful thing. So I don't mean to trivialize it at all. But we 
are also trying to establish a baseline in this hearing of what 
has happened so far, because we have to make trade-offs about 
how we are devoting our resources and in what way.
    So understanding as best we can in this open setting and 
then in the classified setting that we are going to retreat to 
later this afternoon, where we will get a full briefing that we 
will go as deeply as we can go to the current capabilities and 
intentions of terrorists, is I think the best way to start.
    But if I can then leave behind us the threat piece, because 
I think we have covered it. It is essentially both as a matter 
of history and as a matter of taking a snapshot today, a 
theoretical concern that terrorists are going to do this.
    I have to say that my greatest concern is that someone, Dr. 
Casagrande, with your knowledge and background and creative 
insight, would ever turn to the dark side. Because then our 
vulnerabilities become a big problem.
    What can you tell us about indicators that we might be able 
to look for that people, not you, but people who might provide 
this kind of scientific expertise to terrorists, were actually 
meeting up with them or that somehow this illicit commerce was 
beginning where we hadn't had it before.
    Mr. Casagrande. Thank you, Mr. Representative. I think, 
unfortunately, due to the very low technical barriers of an 
attack such as this, there doesn't need to be any specific 
scientific expertise married with the will--just our 
reconnaisance on our agriculture systems, where these people 
should put the pathogens, what would be the most devastating by 
looking at our economy and how the commodities flow.
    Mr. Cox. So, for example, would someone then reading your 
testimony on the Internet today get enough of a clue about 
where they should go, that they could do it without a whole lot 
of additional help from somebody like you?
    Mr. Casagrande. No, the operational detail has been left 
out, such that they wouldn't know exactly what to do.
    Mr. Cox. So where would they get the operational detail? 
Who could help them with that?
    Mr. Casagrande. Well, by studying how our agricultural 
commodities move, exactly what facilities they can gain access 
to, exactly where the most animals come together and then go 
across the country and how--.
    Mr. Cox. In other words, open source information?
    Mr. Casagrande. Absolutely.
    Mr. Cox. Without the specialized training?
    Mr. Casagrande. I think so, yes. One somewhat near example 
is the case of Rabbit Calicivirus in New Zealand. Rabbits are 
an imported animal, and they are a pest to agriculture there.
    The farmers decided they wanted to spread a pathogen 
amongst the rabbits to get rid of them. So these farmers, 
through secret networks, were able to import the disease. Each 
one was able to magnify it and spread it amongst the rabbit 
population to devastate the rabbit population there. So a 
similar thing could be done by equally untrained people in the 
United States.
    Mr. Cox. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simmons. Thank you, Mr. Chairman. The Chair now yields 
to the distinguished ranking member of the full committee, Mr. 
Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Reardon, in your present position, what type of threat 
information do you receive at this point?
    Mr. Reardon. Congressman, I would have to tell you that I 
oversee the State's food inspection program. We inspect about 
9,000 facilities a year, handle 600 consumer complaints a year 
and do quite a bit of work. We presently do not receive any 
information regarding threats to agriculture.
    Mr. Thompson. Do you think it would be wise for a system to 
be devised that would provide you with that information?
    Mr. Reardon. I think it is imperative that if that 
information is available, that a person such as myself should 
receive that information. There is a lot that I have at my 
disposal at the State level as far as resources and people and 
sampling capability and so forth--that as we check for a 
variety of products on the market every day we look for 
pesticides, pathogens--a lot of things in survey samples, other 
tests and during inspections of facilities.
    If we had information regarding threats to agriculture, we 
could redirect some of those resources of those areas where 
they may be more appropriately used. So I think there has to be 
a system that shares with transparency that information with 
officials such as myself at the State level.
    Mr. Thompson. If the Federal Government, through the 
Departments of Homeland Security, Agriculture or Health and 
Human Services saw agro-terrorism as a potential threat, how--I 
am trying to put the interface together with your department--
who would receive it in North Carolina now if such a threat 
existed?
    Mr. Reardon. There may be a couple of ways that that 
information could come in. It could come into our Secretary of 
Crime Control and Public Safety, which would be responsible for 
the disbursement of ODP funds. It could come into an emergency 
operations center that would normally handle, if you will, 
hurricanes and other kinds of disasters.
    But more appropriately, that information should come into 
the agency that has responsibility for the area to which that 
information pertains. The fewer hands that information goes 
through, the more likely that it will be accurate, and that the 
appropriate agency can capably react to it.
    So I would suggest that in most States today, the Food and 
Drug Administration commissions people at the State level, they 
do background checks. They give them the ability to conduct 
inspections and to collect paperwork and collect samples on 
behalf of the FDA. We need some system in place that would 
identify who those key people are at the State level so they 
can be provided with information that could reduce or at least 
allow them the opportunity to reduce the likelihood of an 
attack.
    Mr. Thompson. How much outreach has there been to educate 
the public about reporting potential acts of agro-terrorism or 
any kind of disease-borne illnesses that might be released in 
the environment?
    Mr. Reardon. What I am seeing from a State level, and I can 
speak more specifically about North Carolina, is that we did 
make foot and mouth disease, Exotic Newcastle Disease, a 
reportable disease to the State veterinarian. We have done a 
lot of work and as recognized in several reports, North 
Carolina is recognized as being one of the leading States in 
being progressive and forward leaning, if you will, on those 
kinds of issues. So North Carolina has really done a lot of 
things to create the groundwork that we would move that 
information very quickly if there was a disease in place, from 
a State perspective.
    Mr. Thompson. But your testimony today is that from the 
Federal level, you are more or less out of the loop at this 
point?
    Mr. Reardon. That is correct.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chair.
    Mr. Simmons. The Chair recognizes the gentleman from 
Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and to each 
of our witnesses, first of all let me apologize for missing 
your opening statements. It has been fascinating to listen to 
some of your answers today. Both of you have expressed how easy 
it would be to attack the U.S. agricultural base.
    I guess my question is, in your view, why haven't we been 
attacked in the agricultural base so far.
    Mr. Reardon. Yes. I would like to respond to that, Mr. 
Representative. There is a number of potential reasons. But 
what we can say is--let me preface this by saying we don't 
know. There are a number of reasons that could be a terrorist 
attack on agriculture isn't as good theater as a truck bomb.
    Mr. Gibbons. That would bring that up question, would a 
terrorist attack on our agricultural base yield the kind of 
threat or fear that is normally associated with a mass casualty 
event? Do you think that our standard safety procedures that we 
already enact through the food control mechanisms in States and 
localities would help, or can help us prevent a mass casualty 
event.
    Mr. Reardon. So a lot of most dangerous pathogens to 
agriculture as a system, economically, don't affect people at 
all. So limiting the damage of an agriculture attack is part of 
a public information campaign to notify them of what their real 
risk is. If the pathogen used in an attack is harmful to 
people, and there is some threat through food supply or through 
contact with an infected animal, then that does alter the 
equation. I think also public information is still required so 
that people don't overreact.
    Mr. Gibbons. Might there be a risk that a terrorist group 
would try to take credit for a natural-occurring disease or 
something within the agriculture base versus a precipitated 
intentional act.
    Mr. Casagrande. Absolutely. A covert attack on our 
agriculture could be disguised as a natural incident or the 
signatures of a natural incident could be manipulated by 
someone wishing to take credit for it to make it seem 
intentional.
    To use an example that Mr. Reardon used earlier--the 
introduction of foot and mouth disease into Taiwan. Supposedly 
it was started by pigs that were surreptitiously imported from 
China, and foot and mouth disease is partially endemic. It 
would be very difficult to distinguish pigs--well intentionally 
imported, but accidentally infected, from those that were 
intentionally infected by Chinese agents wishing to hurt 
Taiwan's economy. There would be almost no signatures.
    Mr. Gibbons. Do you believe, very briefly--just a quick 
answer would be very acceptable, that there is a greater threat 
to the agriculture base from natural disease or a greater 
threat to a precipitated terrorist attack?
    Mr. Casagrande. I think natural disease has occurred--well, 
I know that natural disease outbreaks have occurred many times 
over the years, and there is no evidence that they will stop.
    Mr. Gibbons. Let me ask you this, the 9/11 Commission which 
student studied in depth terrorist attacks on this country 
following the attack of September 11th, did not make any 
reference per se to agro-terrorism or, on the food supply, in 
their report, can which was vast, authoritative and well 
received.
    I guess, two questions, why do you believe that the 9/11 
Commission omitted a lot of the reference or questions about 
agro-terrorism. Secondly, more importantly, what do you feel in 
your heart of heart, regardless of whether its agro-terrorism 
or anything else, what do you feel is or are the top threats 
that we face as a Nation? Two questions.
    Mr. Casagrande. Well, in my opinion, I think we can expect 
more of the same that terrorists will use relatively 
rudimentary themes to attack such as large vehicle bombs, guns, 
shootings, that kind of thing, because that is what history has 
taught us so far.
    Mr. Gibbons. Okay.
    Mr. Chairman, thank you very much. I yield back the balance 
of my time.
    Mr. Simmons. I thank the gentleman for his questions.
    I turn to the gentleman from North Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Dr. Casagrande, let me follow that one up. I think you have 
indicated that, you know, you are not really sure a person can 
be sure when an agro-terrorism event has taken place, nor 
whether or not it is--is there any way, once it has taken 
place, I guess is my question, to distinguish scientifically 
whether it was intentionally done or it was by natural or by 
accident?
    Mr. Casagrande. Mr. Representative, there are some ways 
that you could get signatures out of some types of attacks. If 
the initial foci of infection, where the infections started, 
were in multiple places almost simultaneously, that would argue 
against it being natural.
    If there are multiple infections without any connection to 
previously-infected facilities, that would be another 
indication that it was intentional.
    However, speaking to another example that Mr. Reardon gave 
earlier, the Exotic Newcastle Disease outbreak, some of that, 
the control of that disease was hampered by people illegally 
transporting fighting birds throughout the southwest. So that 
is illicit activity that was causing new outbreaks that could 
be mimicked by an intentional act.
    Mr. Etheridge. Thank you. Mr. Reardon, I understanding that 
every State with a significant agriculture base is different, 
by and large, and a number of States have followed North 
Carolina's lead in developing the response plans.
    Based on your experience and working with others in a 
national level in all aspects of food preparation, what can we 
do at the Federal level to insure that the resources to secure 
our agriculture sector are properly allocated. You alluded to 
that earlier, but I will give you a chance to do it in one, 
two, three, four.
    Mr. Reardon. Congressman Etheridge, I really appreciate 
that question. I think that there are already some vehicles in 
place in low-hanging fruit, if you will, that the State 
agencies today inspect a lot of facilities, they work really 
hard to ensure that the food supply is safe.
    If you look at some of the data that is available to us, 
you know, from a State perspective, we inspect about 2.5 
million facilities in the United States today. The States do 
that. They actually inspect 86,000, of which are subject to FDA 
inspection. They follow up on 46,000 consumer complaints a 
year. In North Carolina, we follow up on 600 ourselves.
    What we need to make us stronger Nation is not that FDA, if 
you will, which works with us, to become bigger, what we need 
is that we reinforced the relationships that we have today and 
strengthened those and realized the important factor that the 
States play in food safety every day.
    One piece I would like to add to that is the consumer 
complaint databases that is across this country today; North 
Carolina, we do 600 consumer complaints a year, some might 
involve food illness, food tampering, a variety of things. 
There needs to be a mechanism at the Federal level that will 
capture that consumer database complaints, surveillance, if you 
will, and put the pieces together early--or that North Carolina 
is having a bottled water complaint, so is Tennessee, so is 
Kentucky.
    What we will find is the quicker we identify and recognize 
something that is happening not only in our State but in other 
States, the quicker we can respond. In this case we don't need 
bigger FDA, we need a greater relationship with FDA.
    Mr. Etheridge. Or coordination?
    Mr. Reardon. Yes, sir.
    Mr. Etheridge. I think you have touched on the other one to 
make sure we don't duplicate at the Federal level or undermine 
the State response.
    Let me move to another question quickly before my time runs 
out. In your testimony you spoke about the threat of the 
Nation's poultry being the about unshipped birds being shipped 
through the U.S. postal system. Would you like to elaborate on 
that a little bit more and the risk it poses to one of the 
large industries, not only in our State but in this country?
    Mr. Reardon. I would very much like to talk about that 
particular issue. When North Carolina initiated the assessment 
for vulnerability for the opportunity, if you will, for Exotic 
Newcastle Disease to come into North Carolina, I would remind 
you when it came into California it cost nearly $160 million. 
Some of you from California understand that. Even in the height 
of that, $160 million. It only involved 22 commercial 
facilities. In North Carolina today, we have 4,500.
    What we saw with our assessment of what was going on with 
the movement of birds in our State, during the very height of 
that outbreak in California and late 2002, early 2003, we were 
daily receiving birds in our State. One county north of the 
quarantine area in California was coming into our United States 
postal facility, being stacked on wooden crates, if you will, 
or floats, fans blowing through those birds for several hours, 
and then those birds dispersed through our State and sent to 
other States.
    In the appendices that you have, we have documented the 
actual zip codes of where those birds come to and where they 
were shipped to.
    Mr. Reardon. I will suggest to you, even without support 
data, that if any of those birds could have potentially been 
exposed or had Exotic Newcastle Disease, the threat to our $2.1 
billion industry in our State would surely have been elevated. 
We formally do ask that that concept of moving untested, 
unregulated birds through the United States Postal Service be 
reviewed. Thank you.
    Mr. Etheridge. Thank you. I yield back, Mr. Chairman.
    Mr. Simmons. Thank you for those terrific questions and the 
responses.
    The gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    To follow up on Representative Gibbons' questions a little 
bit, at least in my view, my State agricultural officials seem 
to be pretty responsive in Pennsylvania with respect to 
outbreaks of avian flu or plum pox virus, or whatever the 
pathogen may be. Do you share that view, that State officials 
are quite good at attempting to contain these types of 
outbreaks that are naturally occurring?
    Mr. Reardon. I would suggest to you, Congressman, very 
passionately so. These States work hand in hand. They know 
these people that own these farms. They have a daily 
relationship with the associations. Absolutely, they are.
    Mr. Dent. And, in your view, do you believe that may be 
part of the reason why we have not seen attacks on our food 
supply? That terrorists may be aware of our capabilities and 
our ability to contain?
    Mr. Casagrande. Mr. Representative, if I may. I wouldn't 
think so, because the attack doesn't have to spread out of 
control, in an out-of-control manner, in order for there to be 
severe economic consequences. Merely the presence of a foreign 
animal disease or a plant pathogen, a plant pest in our country 
can have wide-ranging impacts not only in our trade markets but 
also the stock market.
    Mr. Dent. And one more question specific to the dairy 
sector in my State, and many of the Northeast and New England 
States have a big dairy sector. Forty percent of my ag output 
is in dairy. How well are we doing in the dairy sector in this 
country in terms of protecting ourselves?
    Mr. Casagrande. Well, dairy actually has--it has been the 
leading industry in animal tracking, especially in certain 
States like Wisconsin, which has a humongous dairy market. 
These groups have taken it from the beginning to make sure that 
every animal has a unique identifier and they are tracked when 
they move from farm to farm. That type of system will greatly 
facilitate the tracking of, the disease spread, and the 
containment of the spread. So dairy is one of the industries, 
for that reason, that is not as vulnerable as others; but also, 
because it is generally less consolidated and less large than 
the beef industry. You will have smaller farms with fewer 
animals than a large feed lot.
    Mr. Reardon. And if I may, I would like to follow up on 
that. In North Carolina, we could not be prouder of our dairy 
association, their leadership and forward thinking. They have 
taken many steps today to reduce the likelihood of tampering 
with their product and movement, production, and distribution. 
We could not be prouder of that industry.
    Having said that, though, I did participate in a tabletop 
exercise, and this really draws to the Chairman's statement 
earlier on in which we assimilated a potentially contaminated 
fluid product and how we would get that product off the market 
and how we would restore consumer confidence. But the answer 
from the retailer was: We will just simply remove that product 
from market and won't offer it again.
    And it was quite alarming when I know that person that 
owned that large dairy plant and all the different people that 
work in that plant that depend on it in their communities and 
their financial support coming from that plant. And that is 
something that we are going to really need to work on is how do 
we handle the recovery of getting that company up and going 
again and back doing business. So there are many dimensions to 
this issue.
    Mr. Dent. Thank you.
    Mr. Simmons. I thank the gentleman for his questions. And 
the comment goes right to the issue that I raised, and I would 
like to make another comment about it. But first I like would 
to recognize the distinguished gentleman from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
gentlemen for both being here. I eat a lot of microwave 
dinners, and they are tasting better and better every day.
    But Dr. Casagrande, if I can begin with you. As Chairman 
Simmons noted earlier, former HHS Secretary Tommy Thompson 
stated that, ``For the life of me, I cannot understand why 
terrorists have not attacked the food supply, because it is so 
easy to do.'' Now, as Secretary, he would have had access to 
the most sensitive information about threats to our food 
supply.
    So if you could, just in general terms without being 
specific, in your judgment, what stage of the food production 
process presents the greatest agro-terror threat that is the 
most vulnerable? And how would you prioritize the level of 
threat among the remaining stages of the food production 
process?
    Mr. Casagrande. Thank you, Mr. Representative, for that 
question. If we are looking at tampering with food as opposed 
to attacking agriculture, animals, or plants in the field to 
cause economic damage, I would say the biggest vulnerabilities 
lie in products that are produced in bulk and then shipped 
across the country, especially at points in that production 
that is after processing methods that would kill bacteria or 
viruses such as pasteurization and cooking.
    If someone could tamper with the packaging line of an ice 
cream plant, for instance, after all the materials are 
pasteurized or treated, if they are, then that would be an area 
of vulnerability.
    Mr. Langevin. Thank you.
    And Mr. Reardon, to your knowledge, at what point would an 
entity like the Department of Homeland Security or the Federal 
Bureau of Investigation become involved after, for example, if 
foot and mouth disease or some other type of outbreak were to 
occur? And have you at the State level received any briefings 
or guidance from DHS or the FBI in the agro-terrorism area? 
And, again without getting the specifics, if so, then what is 
the nature of that guidance and information that you have 
received?
    Mr. Reardon. Thank you, Congressman Langevin.
    To answer the second part of the question first, and I 
testified earlier that we haven't received--my particular 
division that oversees the food inspection program in North 
Carolina--any information from Homeland Security regarding any 
potential threat. However, we would welcome the opportunity to 
receive in an official capacity that kind of information.
    Mr. Langevin. So neither information nor any contact with 
DHS?
    Mr. Reardon. We have had contact with DHS. We were just up 
here a few months ago presenting a proposal to do some work for 
them to identify such a specific vulnerability work. We think 
North Carolina leading forward is a great State to do some of 
the vulnerability work that can be used as a national template.
    Having said that, though, we have not received any 
information at the State level regarding any particular known 
threat to a food product.
    Mr. Langevin. Mr. Chairman, that goes back to our real need 
for a threat and vulnerability assessment, and certainly 
protecting our food supply has to be a major part of that 
threat assessment.
    So thank you, gentlemen, for your testimony. I yield back.
    Mr. Simmons. I concur with the gentleman's recommendation. 
And that is something that perhaps Mr. Etheridge and other 
members would like to pursue a little bit on behalf of the 
subcommittee.
    Mr. Etheridge. We would. Thank you, Mr. Chairman, very much 
so. Yes.
    Mr. Simmons. Thank you for offering to do that.
    I would like to get back briefly to the bird market issue. 
It is my understanding that poultry farmers in America today, 
whether they are raising broilers or layers, are very careful 
to segregate those birds, very large populations of those 
birds, and to track them as best as they can, and that usually 
they arrive in the form of birds or chicks, and then they are 
segregated throughout most if not all of their remaining lives.
    But there are occasions where birds that are purchased 
through bird markets in urban areas, or older birds who are 
shipped through the mail, can be exposed to other birds. And if 
we take the anthrax example--people remember 9/11; they often 
forget that there was an anthrax attack following 9/11. We 
still don't know all the details about it, but the postal 
service was used as a delivery means. The postal service was 
used as a delivery means. And what you have pointed out is that 
the postal service is a delivery means for agricultural animals 
as well. And under certain conditions, I suspect contaminated 
birds could be put through that system and spread that disease. 
Is that a legitimate threat scenario?
    Mr. Reardon. I think your summary, Mr. Chairman, is right 
on the money. To give you some idea, in just those 8 days we 
were there before we were asked to leave and not come back, we 
identified eight cases of wild turkeys coming into North 
Carolina. We spent millions of dollars in our State in the 
restoration, if you will, of our wild turkeys and are quite 
proud of what we have.
    It was obvious in the way they were packed that they were 
intended to be released. Those birds had no testing information 
at all copying those birds. We had 14 cases of ducks. We had 14 
cases of quails and geese and guineas and such as that. 
However, we had 50 cases of fighting cock birds that were 
coming into North Carolina. And what I will suggest to this 
committee is that a risk or a vulnerability in most cases is 
not a single dimensional issue; it is omnidimensional. And so 
if you have those birds coming into your State but they are 
going to a group of people who work primarily in our commercial 
poultry facilities, you have taken a static risk, and now you 
have elevated that risk.
    What we found in the information we gathered is not that we 
had a single dimensional risk that the birds are coming into 
the State without testing. That absolutely is an issue. We even 
found that they were going to people that were most likely 
working in our commercial facilities. So, in essence, they were 
in proximity to untested birds on the days that they would work 
with our commercial flocks. Although we weren't able to trace 
those birds to deliberately determine that, we could see that 
there was a trend in that neighborhood. And so most risk that 
you will uncover of vulnerability will be multidimensional. And 
there may be pieces that we didn't even uncover.
    But to answer your question, yes, sir.
    Mr. Simmons. I appreciate that response.
    I have one additional question for Dr. Casagrande. You 
spent a substantial period of time in Iraq, and I won't ask you 
the $64,000 question about Iraq. We will pass over that for the 
time being. It is my understanding from the same CRS report 
that the Chairman referred to that at least nine countries in 
the 20th century had agricultural bioweapons programs: Canada, 
France, Germany, Iraq, Japan, South Africa, United Kingdom, 
United States, and the former USSR. And that four other 
countries are believed to have agriculture bioweapons programs: 
Egypt, North Korea, Rhodesia, and Syria.
    Let me focus on Iraq, North Korea, and Syria a little bit. 
One of the concerns we have at a strategic level is that 
sovereign States, or what are sometimes referred to as rogue 
States, may have national programs to develop weapons that then 
can be passed to others to use in terrorist attacks against the 
United States, western Europe, or other democracies around the 
world.
    In your experience in Iraq and in your experience in 
dealing with these issues in the past, do you have any concerns 
about any of these countries passing weapons or technologies to 
terrorist groups?
    Mr. Casagrande. That is a very interesting question, Mr. 
Chairman. If you look at the history of State programs in 
biological warfare against crops or livestock, I personally 
think it is not particularly instructive to the terrorist case. 
The reason for that is most State programs focused on 
decimating the food supply of their rival, especially if that 
food supply was dependent on one staple crop.
    An excellent example was from the U.S. offensive program 
when we had one in the 1950s and 1960s where we targeted the 
Chinese rice crop, because at the time it was estimated that 
causing massive famine by targeting rice would be a more 
efficient way of degrading their military capabilities than 
nuclear weapons even.
    With that in mind, the U.S. is not a very good target 
because our food supply is very diverse and very plentiful. 
Now, however, in the modern era where we are not looking at 
open warfare between rival States, especially against the 
United States because the retribution would be too devastating, 
that is when you look at the smaller covert attacks to sow 
economic damage, to undermine our primary strength in the 
world, which is economic. And in those cases, States can be 
very threatening to us.
    Now, as far as passing technology on to terrorists, I would 
say it is not particularly necessary, and that is because it 
is--as we have stated, it is very easy to do and there are very 
few technological barriers that a State could surpass that one 
educated individual or a small group could not.
    Mr. Simmons. Thank you very much for that response.
    It is my understanding that we will be called for votes 
between 3:30 and 3:40 this afternoon. We obviously want to 
recess and go over to the secure facility to complete the 
hearing. I guess it is my thought that, if any of the other 
members have questions that they want to ask for the record, I 
would be happy to recognize them until we hear the bell. Then 
we go vote, and then we go to the secure facility if that is 
agreeable. Are there any other members who wish to be 
recognized?
    Ms. Lofgren. I would defer to Mr. Etheridge.
    Mr. Simmons. Mr. Etheridge. Yes.
    Mr. Etheridge. Thank you, Mr. Chairman. Very briefly. I 
believe my good friend from Nevada, Mr. Gibbons, raised a 
question about whether or not Al-Qa`ida had--the terrorists had 
paid any attention to the Commission. And Dr. Casagrande, I 
would ask you on this one, because as I remember from the 9/11 
Commission Report, they may not have brought it up, but we do 
know that Al-Qa`ida, in terms of the documents that were 
collected, is known to have had studied our agricultural 
industry, and that our forces, the U.S. forces, found hundreds 
of pages of information about our agricultural and livestock 
industry that was translated into Arabic as part of the 
terrorist training manuals. Is that your understanding?
    Mr. Casagrande. Mr. Representative, that is my 
understanding as well. And also to magnify that, Al-Qa`ida has 
stated many times that it is their duty to undermine the 
economy of the United States as part of a larger offensive.
    Mr. Etheridge. I only raise that question, Mr. Chairman, 
just so we make sure to have it on the record, because I think 
as we look at it, that needs to be a part of it, I think, as we 
are looking at our overall assessment of vulnerabilities and 
security of this country. The truth is everything is at risk, I 
think, when we get to that.
    Thank you. And I yield back.
    Mr. Simmons. Do any other members wish to be recognized?
    Ms. Lofgren. Mr. Chairman, just a quick question. I think 
this has been a helpful hearing, and it has certainly outlined 
the challenges and issues for us. One of the things we haven't 
talked about, really, is the importation of material from 
outside the United States. And it is not really the focus of 
the hearing. But as I was listening to the economic damage, I 
was recalling my days in local government when I actually did 
have some agriculture I represented, including the flower 
growers. And there was just a devastating fungus that actually 
was imported from South America that had, I mean, millions of 
dollars in damage. And that was directly imported flower stock 
that was not adequately inspected.
    I am wondering if there is an issue there that we also need 
to focus on, not in terms, obviously, of flowers, but other 
kinds of--animals, I think, get a little bit more inspection 
than plant goods in terms of the economic impact. Are we 
overlooking that issue here today?
    Mr. Casagrande. I don't think so. I mean, I think that is 
where the vulnerability stems from. The most damaging pathogens 
are not endemic to the United States; they are coming from 
overseas.
    Now, if they were intentionally imported, and as I go into 
in the full testimony, there could be simple ways of doing 
that. However, unintentionally, pathogens can enter the United 
States in some tourist's baggage who wants to take home fresh 
sausage or fresh plants, fruits, or vegetables in some 
instance. And I think that is why the USDA must remain vigilant 
and has remained vigilant at our ports of entry to prevent the 
accidental importation of something very dangerous.
    Ms. Lofgren. Mr. Reardon.
    Mr. Reardon. Yes. I would like to add to that just this 
week a personal a experience. I had contact from one of my 
neighboring States regarding a product that was being imported 
from Africa. It had aflatoxin in it at the level of 800 parts 
per billion. The legal limit for the United States is 20 on 
peanut butter. Can you imagine that? I didn't look at the 
toxicological aspects. Two days later I received a report from 
Kenya of people dying from aflatoxin poisoning in Africa.
    So what it said to me is that those products passed through 
to customs of FDA and were being distributed here in the United 
States. What was surprising to me is that the distributor of 
that product was located in North Carolina, and I had to hear 
it from someone in Virginia without FDA ever being involved. We 
can do better than that. But what it says is that there are a 
lot of products coming into this country that we are not 
testing, that we don't have oversight for. And when you look at 
aflatoxin at 800 parts per billion in those kind of products, 
we need a safety net.
    Ms. Lofgren. Most of what comes in is not inspected.
    Mr. Reardon. Is not inspected. That is correct.
    Ms. Lofgren. And that is the concern: How do you get that 
level of protection without destroying the commerce that is 
necessary? And I don't know what the answer is.
    Mr. Reardon. One of the things that I alluded to earlier, 
and I would suggest to the Chairman again, is that we need to 
develop at the Federal level a way to capture the consumer 
complaint information across all the States. When you look at 
the amount of work that is done as far as consumer complaints, 
on an average scale the Nation's State inspectors handle about 
46,000. In our State, we handle 600. We may share information 
with FDA on 5 of those 600 if we think it is truly significant.
    But I think it would serve this country well to create a 
national database so that we can look at syndromic data from 
across this country and not just encapsulate that data in each 
State. So there is much work to do on that, but I think that is 
a great starting point.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Simmons. Thank you for those questions. The gentleman 
from Nevada.
    Mr. Gibbons. Thank you very much, Mr. Chairman. And to our 
witnesses, both of you, thank you very much for your time and 
presence here today and the information you have shared with 
us.
    It seems to me that we oftentimes focus on terrorist groups 
known as Al-Qa`ida. What is--or is there a threat from non-Al-
Qa`ida terrorist threats; for example, Earth Liberation Front, 
to our agricultural industry today? Is there a threat? And how 
do you perceive that?
    Mr. Casagrande. Mr. Representative, I agree. I think Al-
Qa`ida is actually just one of a few groups that have the 
motivation and the means to attack agricultural. One of the 
reasons why I am surprised an attack hasn't happened yet is 
because the vulnerabilities have existed over the past several 
decades; they are only getting more acute, but they have 
existed. And the profit motive that could be there to attack 
agriculture from criminals, not terrorists, but people just 
wishing to make a buck has been there for a very long time as 
well.
    So criminals, I think, is one group. And groups like you 
said, radical environmentalists who are opposed to genetically 
modified crops, for instance. Most of the corn we have in the 
country is genetically modified, a lot of the soybeans; they 
have a psychic need to attack agriculture because their attack 
is not only a means to an ends but an end in itself. It gets 
rid of what offends them.
    Mr. Gibbons. Let me ask the final question. Does the U.S. 
Government possess the tools to detect, interdict, and to stop 
attacks that we can't envision through our assessment of 
vulnerability today? Do we have the tools?
    Mr. Reardon. Congressman, I would suggest to you that, yes, 
we have the tools within the United States, but they have got 
to be properly utilized and developed. What we need at each 
State level is greater development for response capability.
    We in North Carolina have a crisis response team that is 
trained in incident command structure that will be stood up in 
the event of a food issue. We need that kind of capability in 
all States. We need the resources to provide infrastructure 
development at the State level. We need greater resources to 
provide capacity testing for known pathogens and chemical 
agents at the State level. We know that from a State 
perspective we will in some cases be involved with an issue 
potentially, and not even aware early on that we are involved 
with that particular issue.
    So there is much work to do to get us in a position that we 
can detect, remove, and right-side an industry. So this is 
going to be a long path for the food industry.
    I will say one thing. We have worked since 1906 to develop 
a food safety culture. We are just beginning to embrace the 
definition of a food defense culture. It could be as simple as 
a return goods policy at a small convenience store where a 
product would be put back on the shelf by someone wishing to do 
us harm, whether they are an exotic terrorist or someone within 
our own country you just alluded to.
    So we have got to develop, have the resources at the State 
level so that we can work with our food industry to say, you 
know that person bringing that product back to the store? Here 
is the reasons you wouldn't want to return it to your shelf. 
You no longer can take goods back into your store that went 
back the door.
    That flies in the face maybe of some policies of smaller 
stores today. There is a mechanism to actually provide that 
funding with FDA and States, and that is through contract work. 
We need more money coming from FDA and the food inspection to 
State agriculture departments, where the rubber meets the road, 
to conduct these kind of food defense inspections and provide 
this defense strategy.
    Mr. Gibbons. Well, I think there is an issue here about how 
much the Federal Government's responsibility encompasses or 
encapsulates the State's responsibility as well as to provide 
those resources and provide that technology in each State, 
since each State has somewhat different requirements.
    I know my State of Nevada has a vastly different 
requirement than the State of North Carolina. I would think it 
to be the responsibility of Nevada to develop and encourage its 
own food safety programs, its own food safety technology, based 
on what it sees coming in as the threat to the State of Nevada.
    Mr. Reardon. Congressman, I would agree with you in one 
sense. But I might add to you that because this is a national 
issue, if we have a contaminated product in Virginia, it may 
influence the product sold in Nevada. If we have one in North 
Carolina, it has a national issue to this. So I think there has 
to be Federal guidance in this, and working hand in hand with 
the States to develop this.
    Mr. Gibbons. I think we can do that, and I think there is 
an opportunity for us to work together to find those common 
grounds. But I think we cannot escape the idea, either, that 
States have an obligation within this. It is not just an FDA, 
Federal, rule or role. So I just want to make sure that our 
point is clear: We want to work together, we want to find 
solutions that are common that can be applied universally.
    Mr. Reardon. Absolutely.
    Mr. Gibbons. But not everything in the world can be funded 
by the Federal Government.
    Thank you, Mr. Chairman.
    Mr. Simmons. I thank the gentleman for his remarks. Do any 
other members of the committee have questions to ask on the 
record at this time?
    Hearing none, I want to thank both witnesses for their 
valuable testimony. Clearly, you bring many years of practical 
experience to the question. We appreciate that very much.
    Members of the committee may have some additional questions 
for the witnesses; and if we do, we will submit them in writing 
and ask for a written response. The hearing record will be held 
open for 10 days.
    I would like to remind members that we will adjourn and be 
prepared to vote, at which point we will then go to the 
committee SCIF for the classified portion of this hearing. I am 
particularly interested in what I have learned today about the 
economic impact of terrorist attacks on agriculture. It is not 
really a question of poisoning this person or poisoning that 
person. It is really a question of bringing us down through 
economic initiatives.
    I think it is fascinating that we have had a food safety 
system in place since 1906, and now we are putting on a 
different thinking cap; it is called a food security thinking 
cap. I am sure there are overlaps between the two, and I hope 
that we can take advantage of those overlaps so that we don't 
reinvent the wheel. Information sharing has come out clearly as 
something that we need more of, whether it is among States or 
between the States and the Federal Government, and that 
certainly comes within the jurisdiction of this subcommittee.
    And let me just leave everybody with this thought. The 9/11 
Commission reminded us that our Intelligence Community on 9/11 
suffered from a, quote, ``failure of imagination,'' unquote. 
The fact that we have not seen these things in the past or even 
in the recent past doesn't mean that they are not being 
considered and that they won't happen. And we take it upon 
ourselves as part of our responsibility not to be involved in 
another failure of imagination. And we thank you for your 
participation in this process.
    Thank you very much. And we now stand adjourned.
    [Whereupon, at 3:38 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
